                                                                           X-IN-MOA-0081-2003



               United States Department of the Interior
                                 Office of Inspector General
                                     Washington, D.C. 20240




                                                                  February 10, 2004

U.S. General Accounting Office
441 G. Street, NW Room 5970
Washington, DC 20548

Department of Treasury
Attn: Director, Financial Reports Division
Financial Management Services
Room 500B
3700 East-West Highway
Hyattsville, MD 20782


Dear Sir or Madam:

       Enclosed is the report for the Department of the Interior on “Applying Agreed-Upon
Procedures for FACTS I Data Verification.” This report is required by Office of Management
and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal Financial Statements. The
report was prepared by KPMG LLP (KPMG) under contract with the Department of the Interior,
Office of Inspector General. The contract required that the audit be performed in accordance
with United States generally accepted government auditing standards, OMB Bulletin 01-02 and
the General Accounting Office /President’s Council on Integrity and Efficiency Financial Audit
Manual.

       KPMG is responsible for the report and for the conclusions expressed in the report.
If you have any questions concerning this matter, please contact me at (202) 208-5512 or Mr.
Curtis Crider, Director of Financial Audits, at (202) 208-5724


                                             Sincerely,


                                             Roger La Rouche



                                             Assistant Inspector General
                                              for Audits

Enclosure
                KPMG LLP
                2001 M Street NW
                Washington, DC 20036




               Independent Accountants’ Report on Applying Agreed-upon Procedures
                                 for FACTS I Data Verification


Office of Inspector General,
U.S. Department of the Interior:

We have performed the procedures enumerated in Exhibit A (attached), which were stated in the U.S.
Department of the Treasury’s (Treasury) Federal Agencies’ Centralized Trial Balance System (FACTS)
guidance dated August 5, 2003, to assist the U.S. Department of the Interior’s (Department) Office of
Inspector General (OIG) in evaluating the Department’s assertion that it compared the summarized
FACTS I data to the related information in the Department’s consolidated audited financial statements as
of and for the year ended September 30, 2003. The Department’s management is responsible for the
proper accounting, presentation, and reporting of its consolidated financial statements and reporting of
information to Treasury.

This agreed-upon procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants. These procedures were agreed to
by, and the sufficiency of these procedures is solely the responsibility of, the Office of Management and
Budget (OMB), the U.S. Treasury Financial Management Service (FMS), and the U.S. General Accounting
Office (GAO). Consequently, we make no representations regarding the sufficiency of the procedures
described in Exhibit A either for the purpose for which this report has been requested or for any other
purpose. The procedures we performed and our associated findings are presented in Exhibit A.

We were not engaged to, and did not, conduct an examination of the FACTS I data submission, the
objective of which would be the expression of an opinion on such information. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the Department, OIG, OMB, FMS, and GAO,
and is not intended to be and should not be used by anyone other than these specified parties.




February 5, 2004




                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                member firm of KPMG International, a Swiss cooperative.
                                                                                                                Exhibit A

                                           U.S. Department of the Interior
                                            Agreed-upon Procedures for
                                             FACTS I Data Verification



Procedures and Findings1
1.    The amounts for split U.S. Government Standard General Ledger (SGL) accounts in the Department’s
      accounting records must agree to the corresponding amounts on the Split Account Schedule – FY2003,
      presented in Attachment 1, prepared by the U.S. Department of the Interior (Department) Chief Financial
      Officer (CFO). We compared the amounts in the Department’s trial balance, audited statement of
      custodial activities, or elimination entry to the corresponding amounts for each line item on the Split
      Account Schedule – FY2003.

      Findings: We found such amounts to be in agreement, except as follows:

           Split Account Schedule                 Trial Balance                   Difference         Explanation
          1990F           (67,664.49)        199A.G        3,530,670.85           (3,598,335.34)         A
         5900FT              3,056.12        590N.G            7,291.74               (4,235.62)         A

       A5900FX            45,310,340.73      590E.G          56,567,114.56       (11,256,773.83)           B

       A5900N.X          456,032,032.10      590E.N         451,005,866.86          5,026,165.24           A

       A5310FX            34,443,145.06      531E.G          34,463,725.73            (20,580.67)          A

       S5900N.X        (103,673,161.64)     5909R.N        (96,196,784.11)          7,476,377.53           A



      We communicated the differences noted above to the Department and requested explanations for the
      differences. We received the following explanations from the Department:

      A.     The Department indicated that they believe the difference is immaterial.

      B.     The Department indicated that the elimination entry for general ledger account 5900 was applied to
             non-exchange revenue, however, a portion of this entry related to exchange revenue.

      No additional procedures were performed with respect to management’s explanations as to the reasons for
      the differences.

2.    The amounts for each line item in the Department’s audited consolidated balance sheet and audited
      consolidated statement of changes in net position must agree to the corresponding amounts in the AGW
      columns titled “Amount from Agency Financial Statements” presented in Attachment 2, and “Amount
      from Agency Financial Statements Cumulative Results of Operations” and “Agency Financial Statements
      Unexpended Appropriations” presented in Attachment 3, provided by the CFO. We compared the amounts
      for each line item in the audited consolidated balance sheet and the audited consolidated statement of


1
 Where applicable, the procedures performed took into consideration that the consolidated financial statements and
footnotes were rounded to the nearest thousand.

                                                             2
                                                                                                     Exhibit A

                                      U.S. Department of the Interior
                                       Agreed-upon Procedures for
                                        FACTS I Data Verification



     changes in net position to the corresponding amounts in the AGW balance sheet column titled “Amount
     from Agency Financial Statements” and the AGW statement of changes in net position columns titled
     “Amount from Agency Financial Statements Cumulative Results of Operations” and “Agency Financial
     Statements Unexpended Appropriations.”

     Findings: We found amounts to be in agreement, except as follows:

            Line Item            AGW – Balance           Audited             Difference        Explanation
                                    Sheet              Consolidated
                                                       Balance Sheet
     Public Assets
     Other Assets                     197,846,000             201,544,000       (3,698,000)          A
     Total Assets                  53,962,805,000          53,966,403,000       (3,598,000)          A
     Public Liabilities
     Total – Custodial                 35,992,000                      –        35,992,000           B
     Liability
     Total – Other Liabilities      1,305,365,000           1,341,356,000      (35,991,000)          B


     We communicated the differences noted in the table above to the Department and requested explanations
     for the differences. We received the following explanations from the Department:

     A.    The Department indicated that they believe the difference is immaterial.

     B.    The Department indicated that Treasury classifies certain Treasury Fund Symbols as custodial
           liabilities that the Department has presented as other liabilities. The Department indicated that the
           remaining difference of $1,000 is a result of rounding.

     No additional procedures were performed with respect to management’s explanations as to the reasons for
     the differences.

3.   The amounts for each line item on the AGW balance sheet for the column titled “Amount from Agency
     Financial Statements” presented in Attachment 2, and the AGW statement of changes in net position for
     the columns titled “Amount from Agency Financial Statements Cumulative Results of Operations” and
     “Agency Financial Statements Unexpended Appropriations” presented in Attachment 3, prepared by the
     CFO, must agree to the corresponding amounts in the Department’s audited consolidated balance sheet and
     audited consolidated statement of changes in net position. We compared the amounts for each line item on
     the AGW balance sheet for the column titled “Amount from Agency Financial Statements” and the AGW
     statement of changes in net position for the columns titled “Amount from Agency Financial Statements
     Cumulative Results of Operations” and “Agency Financial Statements Unexpended Appropriations” to the
     corresponding amounts in the Department’s audited consolidated balance sheet and audited consolidated
     statement of changes in net position.

     Findings: No differences were noted other than the differences described above in the findings for
     procedure No. 2.


                                                       3
                                                                                                  Exhibit A

                                     U.S. Department of the Interior
                                      Agreed-upon Procedures for
                                       FACTS I Data Verification



4.   The column on the AGW balance sheet titled “Amount from Agency Financial Statements,” presented in
     Attachment 2, and the columns on the AGW statement of changes in net position columns titled “Amount
     from Agency Financial Statements Cumulative Results of Operations” and “Agency Financial Statements
     Unexpended Appropriations” presented in Attachment 3, must be arithmetically correct. The column titled
     “Differences” on the AGW balance sheet, presented in Attachment 2, and the columns titled “Differences”
     on the AGW statement of changes in net position, presented in Attachment 3, must be arithmetically
     correct. We totaled the subcaptions within the AGW balance sheet column titled “Amount from Agency
     Financial Statements” and AGW statement of changes in net position columns titled “Amount from
     Agency Financial Statement Cumulative Results of Operations” and “Agency Financial Statements
     Unexpended Appropriations.” We also totaled the subcaptions and cross-totaled the captions within the
     AGW balance sheet column titled “Differences” and AGW statement of changes in net position columns
     titled “Differences.”

     Findings: The calculated amounts agreed to the caption and subcaption totals within the “Amount from
     Agency Financial Statements” and the “Differences” columns presented on the AGW balance sheet as well
     as within the “Amount from Agency Financial Statements Cumulative Results of Operations,” “Agency
     Financial Statements Unexpended Appropriations,” and the “Differences” columns presented on the AGW
     statement of changes in net position, except as follows:

     A.    The calculated amount did not agree to the amount in the subcaption titled “Subtotal Prior Period
           Adjustment” within the “Amount from Agency Financial Statements” column for Cumulative
           Results of Operations on the AGW statement of changes in net position.

     B.    The calculated amount did not agree to the amount in the subcaption titled “Subtotal Prior Period
           Adjustment” in the “Differences” column for Cumulative Results of Operations on the AGW
           statement of changes in net position.

     C.    The calculated amount did not agree to the amount in the subcaption titled “Subtotal Prior Period
           Adjustment” in the “Amount from Agency Financial Statements” column for Unexpended
           Appropriations on the AGW statement of changes in net position.

     D.    The calculated amount did not agree to the amount in the subcaption titled “Subtotal Prior Period
           Adjustment” in the “Differences” column for Unexpended Appropriations on the AGW statement of
           changes in net position

     E.    The calculated amount did not agree to the amount in the subcaption titled “Subtotal Beginning
           Balances” in the “Differences” column for Unexpended Appropriations on the AGW statement of
           changes in net position.

     F.    The calculated amount did not agree to the amount in the caption titled “Other Budgetary Financing
           Sources and Adjustments” in the “Differences” column of the Unexpended Appropriations section
           on the AGW statement of changes in net position.




                                                     4
                                                                                                  Exhibit A

                                      U.S. Department of the Interior
                                       Agreed-upon Procedures for
                                        FACTS I Data Verification



     We communicated the differences noted above to the Department and requested explanations for the
     differences. We received the following explanations from the Department:

     A-D. The Department indicated that the difference is a result of the Department entering amounts as a
          subtotal rather than at the detail level.

     E-F. The Department indicated that the difference is a result of the spreadsheet not calculating the
          amount. The Department also indicated that they could not change the spreadsheet to calculate the
          amount because the spreadsheet is password protected.

     No additional procedures were performed with respect to management’s explanations as to the reasons for
     the differences.

5.   Any differences identified for the AGW balance sheet, presented in Attachment 2, and AGW statement of
     changes in net position, presented in Attachment 3, must be explained by the CFO, and the explanations
     should be compared to supporting documentation for consistency. We read Attachments 2 and 3 to
     identify any differences for the AGW balance sheet and AGW statement of changes in net position and
     requested explanations and supporting documentation for those differences from the CFO.

     Findings: We determined that the line item amounts labeled as “Differences” on the AGW balance sheet
     and as “Differences” and “Differences” on the AGW statement of changes in net position were explained
     by the CFO, except for those line items noted below. As a result, we did not compare explanations to
     supporting documentation for the items noted below.

              Financial Statement Line Item                   Difference        Explanation
     Balance Sheet
     TOTAL ASSETS                                             (3,597,745.88)         A

     Intragovernmental Liabilities
     Total Intragovernmental Liabilities                        6,433,694.60         A
     Public Liabilities
        Total Accounts Payable                                     (2,298.64)        B

     Statement of Changes in Net Position
        Cumulative Results of Operations
          Beginning Balances                                  (2,252,400.10)         B
          Beginning Balances, as Adjusted                     (2,251,675.68)         B
          Budgetary Financing Sources
           Other Non-Exchange Revenue                           (296,414.42)         B
          Other Financing Sources
           Total Financing Sources                          (243,175,173.03)         A
          Total Net Cost of Operations                       (11,258,325.71)         A
          Ending Balance                                    (234,168,523.00)         A


                                                     5
                                                                                            Exhibit A

                                 U.S. Department of the Interior
                                  Agreed-upon Procedures for
                                   FACTS I Data Verification



We communicated the differences noted in the table above to the Department and requested explanations
for the differences. We received the following explanations from the Department:

A.    The Department indicated that these differences represent totals and are a combination of the
      explained differences.

B.    The Department indicated that they believe the difference is immaterial.

No additional procedures were performed with respect to management’s explanation as to the reasons for
the “Differences.”

We compared explanations for the differences noted in the table below, to supporting documentation as
described in the respective comments below.

           Financial Statement Line Item                   Difference            Comment
Balance Sheet
Intragovernmental Assets
     Accounts Receivable                                     (152,569.51)          A
Total Intragovernmental Assets                               (153,035.70)          A
Public Assets
    Accounts and Interest Receivable, Net                  (3,444,646.63)          A
Intragovernmental Liabilities
    Accounts Payable                                         6,433,488.71          A
Public Liabilities
    Total Accrued Payroll and Benefits                     (6,433,067.92)          A

Statement of Changes in Net Position
   Cumulative Results of Operations
     Budgetary Financing Sources
      Royalties Retained                                 (245,430,443.24)          B
      Transfers In/Out without Reimbursement                 1,353,821.12          C
      Other Budgetary Financing Sources and                  1,691,995.44          C
      Adjustments
     Other Financing Sources
      Imputed Financing from Financing Absorbed                  1,645.57          C
      from Others
      Transfers In/Out without Reimbursement                 (796,923.78)          C
      Other                                                    300,157.38          C
   Unexpended Appropriations
     Beginning Balances                                      (460,056.64)          C
     Beginning Balances, as adjusted                         (460,781.06)          C
     Other Financing Sources
     Total Financing Sources                                   461,113,51          C

                                                  6
                                                                                                     Exhibit A

                                      U.S. Department of the Interior
                                       Agreed-upon Procedures for
                                        FACTS I Data Verification



     A.    We compared the difference to the Department’s financial statement elimination adjustment and
           noted that the difference did not agree to the elimination adjustment as the elimination adjustment
           included additional amounts. However, the Department indicated that they believe the difference is
           immaterial.

     B.    We compared the difference to the final audited trial balance report and noted an unexplained
           difference of $1,843,743.

     C.    We did not compare the explanation for this difference to supporting documentation because we did
           not receive supporting documentation from the Department. However, the Department indicated
           that they believe the difference is immaterial.

     No additional procedures were performed with respect to management’s explanation as to the reasons for
     the “Differences.”

6.   If there is an amount labeled as “Differences” on the ending balance line at the bottom of the AGW
     statement of changes in net position, presented in Attachment 3, the explanation for the difference must be
     identified by the CFO and supported by appropriate documentation. We obtained the AGW statement of
     changes in net position and determined if there was an amount labeled as “Differences” on the ending
     balance line, and if so, we requested explanations and supporting documentation for those differences from
     the CFO.

     Findings: We determined that the CFO did not provide an explanation for the amount labeled as
     “Difference” on the AGW statement of changes in net position - ending balance line. We communicated
     this difference to the Department and requested an explanation and supporting documentation for the
     difference. The Department indicated that the difference is explained on the “Total Net Position” line and
     resulted because of an incorrect sign on an amount in the Treasury column that the Department is unable to
     change and elimination entry for general ledger account 5900 that was applied to non-exchange revenue;
     however, a portion of this entry related to exchange revenue. We did not compare the explanation to
     supporting documentation because we did not receive any supporting documentation.

7.   The amounts for each line item for agency gross cost, agency exchange revenue, and net cost by Budget
     Function Classification (BFC), from the Department’s audited consolidated financial statement footnotes
     must agree to the corresponding amounts in the statement of net cost columns titled “Agency Statement
     Footnotes” or “Amount From Agency Financial Statements” provided by the CFO, presented in
     Attachment 4. We compared amounts for each line item for agency gross cost, agency exchange revenue,
     and net cost by BFC from the Department’s audited consolidated financial statement footnotes to the
     corresponding amounts in the statement of net cost columns titled “Agency Statement Footnotes” or
     “Amount From Agency Financial Statements.”

     Findings: Net cost by BFC is not included in the statement of net cost; therefore, we were unable to
     compare these amounts from the audited consolidated financial statement footnotes to the statement of net
     cost. We found such amounts for agency gross cost and agency exchange revenue by BFC to be in
     agreement.



                                                       7
                                                                                                    Exhibit A

                                       U.S. Department of the Interior
                                        Agreed-upon Procedures for
                                         FACTS I Data Verification



8.    The amounts for each line for agency gross cost, agency exchange revenue, and net cost, by BFC on the
      statement of net cost for the columns titled “Agency Statement Footnotes” or “Amount From Agency
      Financial Statements” provided by the CFO, presented in Attachment 4, must agree to the corresponding
      amounts in the Department’s audited consolidated financial statements footnotes. We compared the
      amounts for each line for agency gross cost, agency exchange revenue, and net cost, by BFC, on the
      statement of net cost for the columns titled “Agency Statement Footnotes” or “Amount From Agency
      Financial Statements” to the corresponding amounts in the Department’s audited consolidated financial
      statement footnotes.

      Findings: Net cost by BFC is not included in the statement of net cost; therefore, we were unable to
      compare these amounts from the audited consolidated financial statement footnotes to the statement of net
      cost. We found such amounts for agency gross cost and agency exchange revenue by BFC to be in
      agreement.

9.    The amounts for each line item in the Department’s audited consolidated financial statement footnotes for
      intragovernmental agency gross cost and agency exchange revenue, by BFC, must agree to the
      corresponding amounts in the statement of net cost column titled “Agency Statement Footnotes,” in the
      sections titled “Interdepartmental Amounts Included in Agency Net Cost” and “Interdepartmental
      Amounts Included in Agency Exchange Revenue” provided by the CFO, presented in Attachment 4. We
      compared the amounts for each line item in the Department’s audited consolidated financial statement
      footnotes for intragovernmental agency gross cost and agency exchange revenue, by BFC, to the
      corresponding amounts in the column titled “Agency Statement Footnotes,” in the sections titled
      “Interdepartmental Amounts Included in Agency Net Cost” and “Interdepartmental Amounts Included in
      Agency Exchange Revenue,” of the statement of net cost.

      Findings: We were unable to perform the above procedures relating to intragovernmental agency gross
      cost and agency exchange revenue by BFC because the Department did not complete the sections titled
      “Interdepartmental Amounts Included in Agency Net Cost” and “Interdepartmental Amounts Included in
      Agency Exchange Revenue” on the statement of net cost. The Department indicated that they did not
      complete these sections because Treasury did not populate these sections. No additional procedures were
      performed with respect to management’s explanation.

10.   The amounts for each line item for agency gross cost and agency exchange revenue, in the sections titled
      “Interdepartmental Amounts Included in Agency Net Cost” and “Interdepartmental Amounts Included in
      Agency Exchange Revenue” by BFC, from the statement of net cost column titled “Agency Statement
      Footnotes” provided by the CFO, presented in Attachment 4, must agree to the corresponding amounts in
      the Department’s audited consolidated financial statement footnotes. We compared the amounts for each
      line item for agency gross cost and agency exchange revenue, in the sections titled “Interdepartmental
      Amounts Included in Agency Net Cost” and “Interdepartmental Amounts Included in Agency Exchange
      Revenue” by BFC, from the statement of net cost column titled “Agency Statement Footnotes” to the
      corresponding amounts in the Department’s audited consolidated financial statement footnotes. No
      additional procedures were performed with respect to management’s explanation.

      Findings: We were unable to perform the above procedures relating to intragovernmental agency gross
      cost and agency exchange revenue by BFC because the Department did not complete the sections titled
      “Interdepartmental Amounts Included in Agency Net Cost” and “Interdepartmental Amounts Included in

                                                       8
                                                                                                      Exhibit A

                                       U.S. Department of the Interior
                                        Agreed-upon Procedures for
                                         FACTS I Data Verification



      Agency Exchange Revenue” on the statement of net cost. The Department indicated that they did not
      complete these sections because Treasury did not populate these sections.

11.   The amounts for total agency gross cost, total agency exchange revenue, and total net cost from the
      statement of net cost columns titled “Agency Statement Footnotes” or “Amount From Agency Financial
      Statements” provided by the CFO, presented in Attachment 4, must agree to the corresponding amounts in
      the Department’s audited consolidated financial statement footnotes. We compared the amounts for total
      agency gross cost, total agency exchange revenue, and total net cost from the statement of net cost columns
      titled “Agency Statement Footnotes” or “Amount From Agency Financial Statements” to the
      corresponding amounts in the Department’s audited consolidated financial statement footnotes.

      Findings: We found such amounts to be in agreement.

12.   The amounts for total agency gross cost, total agency exchange revenue, and total net cost from the
      Department’s audited consolidated financial statement footnotes must agree to the corresponding amounts
      on the statement of net cost columns titled “Agency Statement Footnotes” or “Amount From Agency
      Financial Statements” provided by the CFO, presented in Attachment 4. We compared the amounts for
      total agency gross cost, total agency exchange revenue, and total net cost from the Department’s audited
      consolidated financial statement footnotes to the corresponding amounts in the statement of net cost
      columns titled “Agency Statement Footnotes” or “Amount From Agency Financial Statements.”

      Findings: We found such amounts to be in agreement.

13.   The statement of net cost columns titled “Agency Statement Footnotes,” “Amount From Agency Financial
      Statements,” and “Difference” presented in Attachment 4, must be arithmetically correct. We totaled total
      agency gross cost, total agency exchange revenue, total interdepartmental agency gross costs, total
      interdepartmental agency exchange revenue, and total net cost on the statement of net cost columns titled
      “Agency Statement Footnotes” or “Agency Financial Statements.” We totaled and cross-totaled the
      statement of net cost column titled “Difference.”

      Findings: The calculated amounts agreed to the totals in the “Agency Statement Footnotes” or “Agency
      Financial Statements” columns and the totals and cross-totals in the “Differences” column for total agency
      gross cost, total agency exchange revenue, and total net cost on the statement of net cost.

      We were unable to perform the above procedures relating to intragovernmental agency gross cost and
      agency exchange revenue by BFC because the Department did not complete the sections titled
      “Interdepartmental Amounts Included in Agency Net Cost” and “Interdepartmental Amounts Included in
      Agency Exchange Revenue” on the statement of net cost. The Department indicated that they did not
      complete these sections because Treasury did not populate these sections. No additional procedures were
      performed with respect to management’s explanation.

14.   Any differences identified on the statement of net cost must be explained by the CFO, and the explanations
      should be compared to supporting documentation for consistency. We inspected the statement of net cost
      for any differences between each line item for total agency gross cost, total agency exchange revenue, and
      total net cost from the Department’s audited consolidated financial statement footnotes and the


                                                        9
                                                                                                     Exhibit A

                                       U.S. Department of the Interior
                                        Agreed-upon Procedures for
                                         FACTS I Data Verification



      corresponding amounts in the statement of net cost column titled “Agency Statement Footnotes,” and
      requested explanations and supporting documentation for those differences from the CFO.

      Findings: We determined that the amounts labeled as “Difference” on the statement of net cost were
      explained by the CFO, except for the differences noted in the table below. As a result, we did not compare
      explanations to supporting documentation for the items noted in the table below.

               BFS                   Amount
       Agency Gross Cost
       300                           $ (44,720,240)
       450                           $    2,896,475
       800                           $    (915,592)
       Agency Exchange Revenue
       300                           $ (43,730,707)
       800                           $    8,347,719
       950                           $ (90,011,901)
       Agency Net Cost
       Total                   $ (4,641,914,497.83)


      For the differences with explanations, we compared the explanations on the statement of net cost to an
      analysis of the Department’s and Treasury’s computation of interdepartmental eliminations for
      consistency. No additional procedures were performed with respect to management’s representations as to
      the reasons for the differences.

15.   The amounts for each respective line item in the FACTS I NOTES Review Schedule for the Department’s
      consolidated financial statement footnotes, or other supporting data, must agree to the corresponding
      amounts on the FACTS I NOTES Review Schedule column titled “Amount from Agency Source Data,”
      presented in Attachment 5. We compared the amounts for each respective line item on the FACTS I
      NOTES Review Schedule from the Department’s consolidated financial statement footnotes, or other
      supporting data indicated in the column titled “Agency Source Data” on the FACTS I NOTES Review
      Schedule, to the corresponding amounts on the FACTS I NOTES Review Schedule column titled “Amount
      from Agency Source Data.”

      Findings: We found such amounts to be in agreement, except as follows:

      A.    Amount listed in the column, “Amount from Agency Source Data,” was not presented in the source
            listed in the “Agency Source Data” column for the following line items:

            1. Note 5 (Plan, Property & Equipment), Line 11, Columns (2), (3), and (4)

            2. Note 12 (Costs of Stewardship Land) Acquired in the Current Fiscal Year, Section A: Heritage
               Natural Assets, Heritage Cultural Assets, and Total Cost of Assets

            3. Note 17 (Other Items), Section C, Other Assets, Line 6, and Section I, Other Losses, Line 6


                                                       10
                                                                                              Exhibit A

                                U.S. Department of the Interior
                                 Agreed-upon Procedures for
                                  FACTS I Data Verification



     4. Note 19 (Commitments and Contingencies), Section B, Unexpended Obligations, Line 21,
        Columns (2), (3), and (4)

We communicated the differences noted above to the Department and requested explanations for the
differences. We received the following explanations from the Department:

     1. The Department indicated that correct source is Note 8 rather than Note 5.

     2. The Department indicated that correct source is Note 20 rather than Note 21.

     3. The Department indicated that correct source is the trial balance report for Section C, Other
        Assets, Line 6 and Note 18 for Section I, Other Losses, Line 6 for rather than Notes 10 and 21,
        respectively.

     4. The Department indicated that correct source is the trial balance report rather than the FACTS
        ATB Report.

No additional procedures were performed with respect to management’s explanations for the differences.

B.    Amount listed in the column, “Amount from Agency Source Data,” did not agree to the amount in
      the source referenced in the “Agency Source Data” column for the following line items:

             Line Item        FACTS I NOTES Agency Source                   Difference       Explanation
                              Review Schedule            Data
      Note 10 (Federal Debt Securities), Section F: Agency Investment in Federal Debt Securities
      Line 21, Column (2)     5,607,838,360.07 5,611,387,000.00             (3,548,639.93)        1
      Note 16 (Deferred Maintenance), Section A
      Buildings, Structures        6,679,236.00 6,679,236,000.00 (6,672,556,764.00)               2
      and Facilities - Low
      Buildings, Structures       11,262,922.00 11,262,922,000.00 (11,251,659,078.00)             2
      and Facilities – High
      Note 16 (Deferred Maintenance), Section A
      Total Deferred               6,679,236.00 6,679,236,000.00 (6,672,556,764.00)               2
      Maintenance on General
      PP&E – Low
      Total Deferred              11,262,922.00 11,262,922,000.00 (11,251,659,078.00)             2
      Maintenance on General
      PP&E – Low
      Note 16 (Deferred Maintenance), Section C: Heritage Assets
      Line 10, Columns (2)           748,886.00       748,886,000.00      (748,117,134.00)        2
      and (3)
      Line 10, Columns (2)         1,558,896.00 1,558,896,000.00 (1,5557,337.104.00)              2
      and (3)



                                                11
                                                                                                      Exhibit A

                                       U.S. Department of the Interior
                                        Agreed-upon Procedures for
                                         FACTS I Data Verification



           We communicated the differences noted in the table above to the Department and requested
           explanations for the differences. We received the following explanations from the Department:

           1. The Department indicated that the difference is a result of the Department entering the net
              investment cost rather than the investment cost.

           2. The Department indicated that the difference is a result of the Department entering the amounts
              rounded to the nearest thousand in the FACTS I NOTES Review Schedule, rather than in whole
              dollars.

           No additional procedures were performed with respect to management’s explanations for the
           differences.

      C.    We did not compare the amount on the FACTS I NOTES Review Schedule to the amount from
            agency source data for the line item, Note 19 (Commitments and Contingencies), Section A, Long
            Term Leases, Line 21, Column 3 and 4, because a source was not presented in the column “Agency
            Source Data”.

16.   The FACTS I NOTES Review Schedule column titled “Amount from Agency Source Data,” presented in
      Attachment 5, must be arithmetically correct. The FACTS I NOTES Review Schedule column titled
      “Variance,” presented in Attachment 5, must be arithmetically correct. We totaled footnote totals within
      the FACTS I NOTES Review Schedule column titled “Amount from Agency Source Data.” We totaled
      footnote totals and cross-totaled the line items in the FACTS I NOTES Review Schedule column titled
      “Variance.”

      Findings: The calculated amounts agreed to the footnote totals within the “Amount from Agency Source
      Data” column or to the line items in the “Variance” column on the FACTS I NOTES Review Schedule.

17.   Any differences between the amounts for each respective line item on the FACTS I NOTES Review
      Schedule for the Department’s consolidated financial statement footnotes, or other supporting data, and the
      corresponding amounts on the FACTS I NOTES Review Schedule column titled “Amount from Agency
      Source Data,” presented in Attachment 5, must be identified and explained by the CFO. We inspected
      Attachment 5 for any differences between the amounts for each respective line item on the FACTS I
      NOTES Review Schedule for the Department’s consolidated financial statement footnotes, or other
      supporting data, and the corresponding amounts on the FACTS I NOTES Review Schedule column titled
      “Amount from Agency Source Data,” and requested explanations and supporting documentation for those
      variances from the CFO.

      Findings: No variances were identified between the amounts in the FACTS I NOTES Review Schedule
      columns titled “Amounts from FACTS I NOTE Report Data” and “Amount from Agency Source Data”
      presented in Attachment 5.




                                                       12
                                        SPLIT ACCOUNT SCHEDULE- FY 2003
                                                                                                                                            Attachment 1


                                               BALANCE SHEET SPLITS

                                                                                  AGENCY

SGL Account   SGL Amount                                             Section               Amount                Message       Difference
              from FACTS

1340F            2,588,599.52 B/S- Intragov't Investments                                     2,153,197.00
                              B/S-Intragov't Accounts and Interest Receivables, Net             435,402.52
                              B/S- Loans and Interest Receivables, Net
                                                                                              2,588,599.52   Balance OK



1340N           32,919,964.44 B/S- Investments                                                1,483,376.00
                               B/S- Accounts and Interest Receivables, Net                    1,463,965.00
                               B/S- Loans and Interest Receivables, Net                      29,972,623.44
                                                                                             32,919,964.44   Balance OK



1349F                      -   B/S- Intragov't Accounts and Interest Receivables, Net
                               B/S-Loans and Interest Receivables, Net
                                                                                                      -      No Data Entered



1349N           17,591,463.92 B/S- Accounts and Interest Receivables, Net                       858,396.00
                              B/S-Loans and Interest Receivables, Net                        16,733,067.92
                                                                                             17,591,463.92   Balance OK



1360F                      -   B/S- Intragov't Accounts and Interest Receivables, Net
                               B/S-Loans and Interest Receivables, Net
                                                                                                      0.00   No Data Entered



1360N            2,301,044.18 B/S- Accounts and Interest Receivables, Net                     1,621,070.00
                              B/S-Loans and Interest Receivables, Net                           679,974.18
                                                                                              2,301,044.18   Balance OK



1369F                      -   B/S- Intragov't Accounts and Interest Receivables, Net
                               B/S-Loans and Interest Receivables, Net
                                                                                                      0.00   No Data Entered



1369N              983,723.91 B/S- Accounts and Interest Receivables, Net                       983,723.91
                              B/S-Loans and Interest Receivables, Net
                                                                                                983,723.91   Balance OK



1990N          266,731,204.50 B/S-General Plant, Property & Equipment, Net                   68,718,478.00
                              B/S-Other Assets                                              198,012,726.50
                                                                                            266,731,204.50   Balance OK                 -




1990F            1,248,128.51 B/S-General Plant, Property & Equipment, Net                    1,315,793.00
                              B/S-Other Assets                                                  -67,664.49
                                                                                              1,248,128.51   Balance OK                 -
                                         SPLIT ACCOUNT SCHEDULE- FY 2003
                                                                                                                                                                       Attachment 1


                                               BALANCE SHEET SPLITS

                                                                               AGENCY

SGL Account   SGL Amount                                          Section                            Amount                             Message           Difference
              from FACTS



2990F          270,858,855.13 B/S-Judgment Fund                                                           179,725,421
                              B/S-Other Liabilities                                                    91,133,434.00
                                                                                                      270,858,855.13                Balance OK



2990N          368,930,107.31 B/S-Judgment Fund
                              B/S-Other Liabilities                                                   368,930,107.31
                                                                                                      368,930,107.31                Balance OK




                                          NET POSITION & CUSTODIAL SPLITS




A5900FT                          SOCNP- Abandoned Mine Fees Collected                                             0.00
                                 SOCNP- Other Non-Exchange Revenue                                            3,056.12 SPLIT G
                                                                                                              3,056.12

A5900FX                          SOCNP- Net Cost of Operations                                         45,310,340.73 SPLIT K

S5900FX                          SOCNP- Minerals Resource Management Revenue                                     0.00 SPLIT C



5900F           45,313,396.85                                                                          45,313,396.85                Balance OK                     -



A5900N.T                         SOCNP- Abandoned Mine Fees Collected                                 282,943,305.57 SPLIT B
                                 SOCNP- Other Non-Exchange Revenue                                     36,575,356.30 SPLIT F
                                                                                                      319,518,661.87



S5900N.X                         SOCNP - Total MRM Revenue                                                            SPLIT D 1
                                 SOCNP - MRM Revenue & SCA Rents and Royalties                       6,716,830,483.82 SPLIT D 2
                                 SOCNP - MRM Revenue & SCA Offshore Lease Sales                        485,841,142.55 SPLIT D 3
                                 SOCNP - MRM Revenue & SCA Strategic Petroleum Reserve               1,044,349,658.77
                                 SOCNP - MRM Revenue for MMS (Less)                                   -103,673,161.64
                                                                                                     8,143,348,123.50                             To SOCNP Royalties

A5900N.X                         SOCNP - Net Cost of Operations                                       456,032,032.10 SPLIT A

5900N         8,918,898,817.47
                                                                                                     8,918,898,817.47               Balance OK                     -



S5990FX                          SOCNP - Contra Revenue & SCA- National Park Service Conserv Funds   1,048,999,960.00   SPLIT H 4
                                 SOCNP - Contra Revenue & SCA- Bureau of Reclamation                   753,373,594.34   SPLIT H 5
                                 SOCNP - Contra Revenue & SCA- Minerals Management Service           1,070,293,849.10   SPLIT H 6
                                 SOCNP - Contra Revenue & SCA- Bureau of Land Management                72,843,188.59   SPLIT H 7
                                 SOCNP - Contra Revenue & SCA- Fish and Wildlife Service                 2,909,054.60   SPLIT H 8
                                 SOCNP - Contra Revenue & SCA- Department of the Treasury            4,208,092,365.33   SPLIT H 9
                                           SPLIT ACCOUNT SCHEDULE- FY 2003
                                                                                                                                                                      Attachment 1


                                                  BALANCE SHEET SPLITS

                                                                                     AGENCY

SGL Account   SGL Amount                                                Section               Amount                                Message             Difference
              from FACTS
                                  SOCNP - Contra Revenue & SCA- Department of Agriculture         22,919,773.48 SPLIT H 10
                                  SOCNP - Contra Revenue & SCA- Department of Commerce                     0.00 SPLIT H 11
                                  SOCNP - Contra Revenue & SCA- Department of Energy           1,044,349,658.77 SPLIT H 12
                                  SOCNP - Contra Revenue & SCA - Other                                     0.55
                                                                                               8,223,781,444.76                                To SOCNP Royalties

                                  Intra Dept Elims- SCA is presented gross, not eliminated    (3,027,963,374.54)                               To SOCNP Royalties

5990F         5,275,361,798.13

                                                                                              5,195,818,070.22

S5990FX                           SOCNP - Contra Revenue & SCA- Indian Tribes and Agencies        79,543,727.91 SPLIT J 13                     To SOCNP Royalties

                                                                                                                                              See 2nd 5990F account
                                                                                                  79,543,727.91                                               below


                                                                                               5,275,361,798.13                 Balance OK



A5310N.T                           SOCNP - Other Non- Exchange Revenue                             7,647,215.61 SPLIT J 13
A5310N.X                           SOCNP - Net Cost of Operations                                 15,475,190.26 SPLIT J 14
S5310N.T                           SCA - Interest Revenue                                                       SPLIT J
S5310N.X                          SOCNP - Net Cost of Operations
   5310N        23,122,405.87
                                                                                                  23,122,405.87                 Balance OK

A5310FT                           SOCNP - Other Non -Exchange Revenue                             85,247,357.67 SPLIT J 13
A5310FX                           SOCNP - Net Cost of Operations                                  34,443,145.06 SPLIT J 14
S5310FT                           SOCNP- Other Non-Exchange Revenue
S5310FT                           SCA - Interest Revenue                                                           SPLIT J

   5310F       119,690,502.73                                                                    119,690,502.73                 Balance OK                        -



A5319N.T                          SOCNP - Other Non -Exchange Revenue                                671,204.00 SPLIT J 13
A5319N.X                          SOCNP - Net Cost of Operations                                      30,360.81 SPLIT J 14
S5319N.T                          SCA - Interest Revenue

  5319N            701,564.81                                                                        701,564.81                 Balance OK



A5319FT                           SOCNP - Other Non- Exchange Revenue                             -2,038,632.72 SPLIT J 13
A5319FX                           SOCNP - Net Cost of Operations                                     437,696.16 SPLIT J 14
S5319FT                           SCA - Interest Revenue

   5319F         (1,600,936.56)                                                                   (1,600,936.56)                Balance OK



A5909FT                           SOCNP- Abandoned Mine Fees Collected                                             SPLIT J 13
                                  SOCNP - Other                                                                    SPLIT J 14
A5909FX                           SOCNP - Net Cost of Operations
S5909FX                           SOCNP - Royalties Retained
                                             SPLIT ACCOUNT SCHEDULE- FY 2003
                                                                                                                                                                                                       Attachment 1


                                                    BALANCE SHEET SPLITS

                                                                                     AGENCY

SGL Account       SGL Amount                                            Section                                               Amount                            Message                  Difference
                  from FACTS

   5909F                        -                                                                                                          0.00             No Data Entered



A5909N.T                             SOCNP- Abandoned Mine Fees Collected                                                           532,733.19 SPLIT J 13
                                     SOCNP- Other                                                                                   300,157.38 SPLIT J 14
A5909N.X                             SOCNP - Net Cost of Operations                                                                  67,387.34
S5909N.X                             SOCNP - Royalties Retained                                                                  96,196,784.11                                 To SOCNP Royalties

                                                                                                                                                                              Line 173 shd not go to
   5909N             97,097,062.02                                                                                               97,097,062.02              Balance OK                         SCA



S5990N.X                             SOCNP - Contra Revenue & SCA- States and Others                                             65,489,463.99 SPLIT J 13                      To SOCNP Royalties
                                     SOCNP - Contra Revenue & SCA- Others                                                               -15.00 SPLIT J 14                      To SOCNP Royalties

   5990N             65,489,448.99                                                                                               65,489,448.99              Balance OK                             -




S5991FT                              SOCNP - Contra Revenue & SCA - Change in Untransferred Collections                        -121,793,350.97 SPLIT L 15                      To SOCNP Royalties
S5991FX                              SOCNP - Contra Revenue & SCA - Change in Untransferred Collections
                                     Intra Dept Elims- SCA is presented gross, not eliminated                                  234,169,284.23



   5991F            112,375,933.26                                                                                             112,375,933.26               Balance OK                         0.00

                                                                                                                                                                                               0.00

Attention Final AGW Preparer (AGW with audited data provided by agency):

1. This worksheet provides information on SGL accounts that are split between two lines on
   the agency audited financial statement. The split schedule is "linked" to other AGW worksheets in this file (Balance sheet, etc)
2. Please enter the dollar amounts for each SGL split on the agency audited financial statement (all 'split" entry fields are highlighted in yellow).
3. All non-entry fields are protected and linked to a external FMS database. Complex excel formulas link to FACTS I data, these formulas
   are hidden on the split worksheet. DO NOT ATTEMPT TO CIRCUMVENT/BYPASS THE PROTECTION ON THIS SHEET, DOING SO WILL DESTROY
   THE INTEGRITY OF THE WORKSHEET, THE AUDIT PROCESS AND MANY HOURS OF PROGRAMMING WORK INVESTED IN THIS WORKSHEET,
   ONLY THE PROGRAMMED WORKSHEET WILL BE ACCEPTED AS THE FINAL AGW, ALL OTHER WORKSHEETS WILL BE RETURNED.
5. Please ensure that the column entitled "Message" does not contain the word "Error". When properly completed the "Message"
   column should read "Balance OK". If the SGL amount is 0 then the message "No Data Entered" will appear and this is acceptable.
6. If errors persist please contact your FMS FACTS I agency contact.
                                                                                                                                                            Attachment 2


Department of Interior

Account Groupings Worksheet
FY 2003 Balance Sheet

                                                                                                                                  Explanations

            Line Item           SGL      Amount from Agency       Consolidated Amount from
                               Account   Financial Statements          FACTS I ATB               Differences
ASSETS
Intragovernmental:
  Fund Balance with Treasury   1010                                         28,698,208,924.63

  Total - Fund Balance with
Treasury                                      28,698,208,000.00             28,698,208,924.63            (924.63) rounding

 Investments                   1340F                                             2,153,197.00
                               1610F                                         5,595,733,070.62
                               1611F                                            (3,538,087.68)
                               1612F                                            19,191,968.94
                               1613F                                            (3,548,591.81)
                               1618F                                                      -
                               1630F                                                      -
                               1631F                                                      -
                               1633F                                                      -
                               1638F                                                      -
                               1639F                                                      -
                               1620F                                                      -
                               1621F                                                      -
                               1622F                                                      -
                               1623F                                                      -
                               1690F                                                      -
 Total - Investments                           5,609,992,000.00              5,609,991,557.07            442.93 rounding

                               1310F                                                                                                                              Difference due to
                                                                                                                                                                  Financial
 Accounts and Interest
                                                                                                                                                                  Statement
Receivables, Net
                                                                                                                                                                  Eliminations
                                                                               339,963,415.83                     Per F/S 339,810,660                     152,756 Adjustment
                               1319F                                            (1,576,827.96)
                               1320F                                                      -
                               1325F                                                      -
                               1329F                                                      -
                               1330F                                            52,077,579.12
                               1335F                                                      -
                               1340F                                               435,402.52
                               1349F                                                      -
                               1360F                                                      -
                               1369F                                                      -
                                                                                                                  Difference due to Financial Statement
 Total - Accounts Receivable
                                                 390,747,000.00                390,899,569.51        (152,569.51) Elimination Adjustment

 Other
                                                                                                                                                                    Attachment 2


                                                                                                                                        Explanations

              Line Item               SGL      Amount from Agency       Consolidated Amount from
                                     Account   Financial Statements          FACTS I ATB               Differences
                                    1410F
       Advances and Prepayments                                                        3,623,984.49
                                    1450F                                                       -
       Total - Other                                     3,624,000.00                  3,623,984.49              15.51 rounding



TOTAL INTRAGOVERNMENTAL                                                                                                 Difference due to Financial Statement
                                                    34,702,571,000.00             34,702,724,035.70
ASSETS                                                                                                     (153,035.70) Elimination Adjustment

  Cash                              1110N                                                415,345.54
                                    1120N                                                678,641.14
                                    1130N                                                       -
                                    1190N                                                       -
                                    1195N                                                       -
                                    1200N                                                       -
 Total - Cash                                            1,094,000.00                  1,093,986.68              13.32 rounding

 Investments                        1340N                                              1,483,376.00
                                    1618N                                                       -
                                    1620N                                            181,499,741.75
                                    1621N                                               (670,778.33)
                                    1622N                                                  1,757.86
                                    1623N                                                323,284.49
                                    1690N                                                       -
 Total - Investments                                   182,637,000.00                182,637,381.77            (381.77) rounding

 Accounts and Interest              1310N
Receivables, Net                                                                   1,570,475,968.30                     Per F/S 1,567,030,389.63
                                    1340N                                              1,463,965.00
                                    1319N                                           (344,868,236.76)
                                    1320N                                                       -
                                    1325N                                                       -
                                    1329N                                                       -
                                    1349N                                               (858,396.00)
                                    1360N                                              1,621,070.00
                                    1369N                                               (983,723.91)
 Total - Accounts and Interest                                                                                          Difference relates to Financial Statement
Receivable, Net                                      1,223,406,000.00              1,226,850,646.63      (3,444,646.63) Elimination entry

      Loans and Interest Receivables, 1340F
                                                                                                -
Net
                                    1340N                                             29,972,623.44
                                    1349F                                                       -
                                    1349N                                            (16,733,067.92)
                                    1350F                                                       -
                                    1350N                                            290,556,260.56
                                    1359F                                                       -
                                    1359N                                            (30,019,956.15)
                                    1360F                                                       -
                                                                                                                                                  Attachment 2


                                                                                                                                   Explanations

            Line Item                SGL      Amount from Agency       Consolidated Amount from
                                    Account   Financial Statements          FACTS I ATB                Differences
                                   1360N                                                 679,974.18
                                   1369F                                                        -
                                   1369N                                                        -
                                   1399N                                             (40,800,135.03)
   Total - Loans and Interest
                                                      233,656,000.00                 233,655,699.08            300.92 rounding
Receivable, Net

 Inventory and Related Property,   1511N
Net                                                                                      349,909.05
                                   1512N                                                        -
                                   1513N                                                        -
                                   1514N                                                        -
                                   1519N                                                        -
                                   1521N                                                 518,867.45
                                   1522N                                              11,918,547.31
                                   1523N                                                        -
                                   1524N                                                        -
                                   1525N                                                        -
                                   1526N                                                        -
                                   1527N                                                        -
                                   1529N                                              (9,519,515.50)
                                   1531N                                                        -
                                   1532N                                                        -
                                   1541N                                                        -
                                   1542N                                                        -
                                   1549N                                                        -
                                   1551N                                                        -
                                   1559N                                                        -
                                   1561N                                                        -
                                   1569N                                                        -
                                   1571N                                             334,376,286.20
                                   1572N                                                        -
                                   1591N                                               1,538,174.11
                                   1599N                                                (468,193.43)
  Total - Inventory and Related
                                                                                                                (75.19) rounding
Property, Net                                         338,714,000.00                 338,714,075.19

 General Property, Plant &
Equipment, Net                     1711N                                           1,927,417,556.36
                                   1712N                                             118,859,143.32
                                   1719N                                             (53,522,157.83)
                                   1730N                                           2,557,077,288.02
                                   1739N                                          (1,052,245,392.71)
                                   1740N                                          19,284,074,387.30
                                   1749N                                          (8,579,158,253.18)
                                   1720N                                           1,831,825,448.87
                                   1750N                                           1,726,155,856.22
                                   1759N                                          (1,021,360,007.17)
                                   1810N                                               3,673,787.52
                                   1819N                                                (529,595.68)
                                                                                                                                                                Attachment 2


                                                                                                                                     Explanations

            Line Item            SGL      Amount from Agency        Consolidated Amount from
                                Account   Financial Statements           FACTS I ATB                Differences
                               1820N                                               29,732,526.12
                               1829N                                                  (48,417.04)
                               1830N                                              152,245,740.44
                               1832N                                                         -
                               1839N                                              (38,317,456.15)
                               1890N                                                         -
                               1840N                                                         -
                               1849N                                                         -
                               1990N                                               68,718,478.00
                               1990F                                                1,315,793.00
 Total - Property, Plant and
                                               16,955,915,000.00               16,955,914,725.41             274.59 rounding
Equipment, Net

Other
 Advances and Prepayments      1410N              126,866,000.00                  126,867,133.41
                               1450N                                                         -
 Other Assets                  1921F                                                         -
                               1990N              198,013,000.00                  198,012,726.50
                               1990F                  (67,000.00)                     (67,664.49)
 Stewardship Assets

  Total - Other                                   324,812,000.00                  324,812,195.42            (195.42) rounding


TOTAL ASSETS                                   53,962,805,000.00               53,966,402,745.88      (3,597,745.88)


                                                                             #REF!
                                                                             #REF!



LIABILITIES AND NET POSITION
LIABILITIES
Intragovernmental:
  Accounts Payable             2110F                                               32,759,502.34                       Per F/S 37248438
                               2120F                                                         -
                               2130F                                                         -
                               2155F                                                         -
                               2170F                                                         -
                               2179F                                                         -
                               2190F                                               28,645,008.95                    Per F/S 30589564
                                                                                                                    Difference relates to Financial Statement
   Total - Accounts Payable
                                                   67,838,000.00                   61,404,511.29       6,433,488.71 Elimination entry

 Debt                          2140F                                              947,782,642.53
                               2510F                                              407,064,437.77
                               2530F                                                         -
                               2540F                                                         -
                               2520F                                                9,605,000.00
                                                                                                                                                Attachment 2


                                                                                                                                 Explanations

             Line Item              SGL      Amount from Agency       Consolidated Amount from
                                   Account   Financial Statements          FACTS I ATB               Differences
                                  2590F                                                        -
   Total - Debt                                    1,364,452,000.00               1,364,452,080.30            (80.30) rounding

 Other
                                  2213F
   Accrued Payroll and Benefits
                                                                                     47,788,043.66
                                  2215F                                               3,812,673.63
                                  2225F                                             121,172,717.21
                                  2290F                                              12,662,180.67

   Total - Accrued Payroll and
Benefits                                             185,437,000.00                 185,435,615.17          1,384.83 rounding

    Advances and Deferred
Revenue                           2310F                                           1,236,739,411.86
   Total - Advances and
Deferred Revenue                                   1,236,739,000.00               1,236,739,411.86           (411.86) rounding

   Deferred Credits               2320F                                              11,845,199.94
                                  2400F                                               7,481,098.33
   Total - Deferred Credits                           19,326,000.00                  19,326,298.27           (298.27) rounding

   Custodial Liability            2980F                                             763,386,948.10
   Total - Custodial Liability                       763,387,000.00                 763,386,948.10             51.90 rounding

   Aquatic Resource Amounts
Due to Others                     2150F                                             389,762,295.98

  Total - Aquatic Resource
Amounts Due to Others                                389,762,000.00                 389,762,295.98           (295.98) rounding

   Judgment Fund                  2990F                                             179,725,421.00
                                  2990N                                                        -
   Total - Judgment Fund                             179,725,000.00                 179,725,421.00           (421.00) rounding

   Other Liabilities
                                  2990F                                              91,133,434.13
                                  2940F                                                        -
                                  2950F                                                        -
                                  2960F                                                        -
                                  2970F                                              30,623,289.30
   Total - Other Liabilities                         121,757,000.00                 121,756,723.43           276.57 rounding



TOTAL INTRAGOVERNMENTAL
                                                   4,328,423,000.00               4,321,989,305.40
LIABILITIES                                                                                             6,433,694.60

 Accounts Payable                 2110N                                             493,986,254.60
                                  2120N                                                        -
                                                                                                                                                                Attachment 2


                                                                                                                                       Explanations

             Line Item              SGL      Amount from Agency       Consolidated Amount from
                                   Account   Financial Statements          FACTS I ATB                Differences
                                  2130N                                               3,587,905.18
                                  2190N                                             467,937,138.86
   Total - Accounts Payable                          965,509,000.00                 965,511,298.64          (2,298.64)

    Loan Guarantee Liabiity       2180N                                              52,184,733.02
   Total - Loan Guarantee
Liability                                             52,185,000.00                  52,184,733.02            266.98 rounding

 Debt Held by the Public          2140N                                                        -
                                  2530N                                                        -
                                  2540N                                                        -
                                  2590N                                                        -
   Total - Debt Held by the
Public                                                          -                              -                    -

 Federal Employees                2610N
Compensation Act Liability                                                                     -
                                  2620N                                                        -
                                  2630N                                                        -
                                  2650N                                             712,250,055.01
                                  2690N                                                        -
 Total - FECA Liability                              712,250,000.00                 712,250,055.01             (55.01) rounding

 Environmental Cleanup Costs      2995N                                             121,044,067.00
   Total - Environmental
Cleanup Costs                                        121,045,000.00                 121,044,067.00            933.00 rounding

 Other

   Accrued Payroll and Benefits   2210N                                             120,976,864.85                       Per F/S 114543374
                                  2211N                                                        -
                                  2213N                                              (1,663,037.95)
                                  2215N                                                        -
                                  2216N                                                        -
                                  2217N                                                        -
                                  2218N                                                        -
                                  2220N                                             321,344,241.02
                                  2290N                                                        -
   Total - Accrued Payroll and
Benefits                                             434,225,000.00                 440,658,067.92      (6,433,067.92) F/S eliminations entry of 6,433,490.42

   Deferred Credits               2320N                                             222,399,233.57
                                  2400N                                             276,145,402.11
   Total - Deferred Credits                          498,545,000.00                 498,544,635.68            364.32 rounding

   Custodial Liability            2980N                                              35,991,884.04
   Total - Custodial Liability                        35,992,000.00                  35,991,884.04            115.96 rounding

   Other Liabilities              2310N                                             137,497,102.92
                                  2920N                                             771,586,952.55
                                                                                                                                                Attachment 2


                                                                                                                                 Explanations

             Line Item            SGL      Amount from Agency       Consolidated Amount from
                                 Account   Financial Statements          FACTS I ATB                  Differences
                                2920F                                                        -
                                2990N                                             368,930,107.31
                                2940N                                              27,350,630.59
                                2960N                                                        -
                                2160N                                                        -
                                2910N                                                        -
   Total - Other Liabilities                     1,305,365,000.00               1,305,364,793.37               206.63 rounding

Total Liabilities                                8,453,539,000.00               8,453,538,840.08               159.92 rounding

                                                                             #REF!
                                                                             #REF!


Commitments and Contingencies


Net Position
 Unexpended Appropriations      3100                                            3,915,322,056.64
                                3101                                            9,610,817,255.70
                                3102F                                             140,578,410.85
                                3103F                                             (58,758,485.33)
                                3106                                              (90,404,876.27)
                                3107                                           (9,519,709,418.46)
                                3108                                                         -
                                3109                                              (68,543,275.58)
   Total - Unexpended
Appropriations                                   3,929,302,000.00               3,929,301,667.55               332.45 rounding


 Beginning Cumulative Results of
Operations                       3310                                          39,841,825,400.10    (39,841,825,400.10)

 Current Period Results of
Operations                      5100N                                             383,233,209.82
                                5100F                                                 751,391.28
                                5109N                                                 (47,958.73)
                                5109F                                                  (3,188.60)
                                5200N                                             689,802,248.32
                                5200F                                           2,226,249,921.18
                                5209N                                                    (400.00)
                                5209F                                                        -
                                5310N                                              23,122,405.87
                                5310F                                             119,690,502.73
                                5319N                                                (701,564.81)
                                5319F                                               1,600,936.56
                                5320N                                               7,032,040.57
                                5320F                                                   8,857.14
                                5329N                                                (536,958.78)
                                5329F                                                        -
                                5400N                                                        -
                                                                                                           Attachment 2


                                                                                            Explanations

Line Item     SGL      Amount from Agency     Consolidated Amount from
             Account   Financial Statements        FACTS I ATB                Differences
            5400F                                                      -
            5409N                                                      -
            5409F                                                      -
            5500N                                                12,638.81
            5500F                                                      -
            5509N                                                      -
            5509F                                                      -
            5600N                                            33,327,839.30
            5609N                                                      -
            5610N                                            46,862,863.93
            5619N                                                      -
            5700                                          9,519,709,418.46
            5708                                                       -
            5709                                             68,543,275.58
            5720F                                           348,744,696.61
            5730F                                          (405,590,772.83)
            5740F                                            50,316,779.13
            5745F                                          (299,876,621.48)
            5750F                                           284,599,711.97
            5755F                                           392,984,949.49
            5760F                                           (30,946,512.00)
            5765F                                          (271,094,128.23)
            5780F                                           570,542,354.43
            5790F                                            11,669,004.56
            5799                                                       -
            5800N                                           659,217,378.10
            5800F                                                      -
            5801N                                                      -
            5801F                                                      -
            5809N                                                      -
            5809F                                                      -
            5890N                                                      -
            5890F                                                      -
            5900N                                         8,918,898,817.47
            5900F                                            45,313,396.85
            5909N                                           (97,097,062.02)
            5909F                                                      -
            5990N                                           (65,489,448.99)
            5990F                                        (5,275,361,798.13)
            5991N                                                      -
            5991F                                          (112,375,933.26)
            6100N                                       (12,766,864,221.51)
            6100F                                          (826,774,657.85)
            6190N                                              (398,133.56)
            6190F                                                      -
            6199N                                            11,883,198.00
            6310F                                           (26,425,471.43)
            6320N                                                      -
            6320F                                                      -
            6330N                                            (5,965,538.55)
            6330F                                           (11,962,208.10)
                                                                                                                                               Attachment 2


                                                                                                                                Explanations

           Line Item               SGL      Amount from Agency       Consolidated Amount from
                                  Account   Financial Statements          FACTS I ATB                Differences
                                 6400N                                              (1,053,810.03)
                                 6400F                                            (899,783,967.46)
                                 6500N                                             (20,449,454.59)
                                 6600N                                                        -
                                 6610N                                             606,763,149.13
                                 6710N                                            (456,397,154.91)
                                 6720N                                              (5,026,346.54)
                                 6720F                                              (1,576,827.96)
                                 6730F                                            (559,010,972.63)
                                 6790N                                             181,989,466.86
                                 6790F                                                   5,637.55
                                 6800N                                             331,235,157.41
                                 6800F                                              (5,564,980.38)
                                 6850F                                              (3,861,827.22)
                                 6900N                                          (1,465,977,979.57)
                                 6900F                                              (2,970,859.38)
                                 7110N                                               3,834,704.28
                                 7110F                                                        -
                                 7210N                                             (42,785,871.20)
                                 7210F                                                        -
                                 7290N                                             (81,100,000.00)
                                 7300N                                                        -
                                 7300F                                                        -
                                 7400N                                                        -
                                 7401N                                                        -
                                 7400F                                                        -
                                 7500N                                                        -
                                 7500F                                                        -
                                 7600N                                             (53,136,482.01)
 Total - Cumulative Results of
Operations                                       41,583,563,000.00              41,583,562,238.75             761.25 rounding
Total Net Position                               45,512,865,000.00              45,512,863,906.30           1,093.70
TOTAL LIABILITIES AND NET
                                                 53,966,404,000.00              53,966,402,746.38           1,253.62
POSITION

                                                                              #REF!
                                                                                                                                                                                                                                               Attachment 3


Department of Interior
FY 2003 Account Groupings Worksheet
Statement of Operations and Changes in Net Position




                                                        Amount from Agency       Consolidated Amounts From                                                                      Agency Financial          Consolidated Amounts
                                                        Financial Statements            FACTS I ATB                                                                               Statements               From FACTS I ATB
                                                         Cumulative Results          Cumulative Results                                                                                                       Unexpended
                                                                                                                                                                            Unexpended Appropriations
                 Line Item                  SGL            Of Operations                Of Operations           Differences                  Explanation             SGL                                     Appropriations          Differences     Explanation

1. Beginning Balances                      3310              39,839,573,000.00            39,841,825,400.10         (2,252,400.10)                                  3100              3,914,862,000.00          3,915,322,056.64




                                                                                                                                                                                                                                                   immaterial
        Subtotal Beginning Balances                          39,839,573,000.00            39,841,825,400.10         (2,252,400.10)                                                    3,914,862,000.00          3,915,322,056.64      (460,056.64) reclass

2. Prior Period Adjustments                 7400F                          -                            -                     -                                     3109                                          (68,543,275.58)
                                            7400N                                                       -                     -
                                            7401N                                                       -                     -
                                           5709                                               68,543,275.58        (68,543,275.58)
      Subtotal Prior Period Adjustments                          68,544,000.00                68,543,275.58                724.42 rounding                                              (68,544,000.00)           (68,543,275.58)         (724.42) rounding


                                                                                                                                                                                                                                                   immaterial
3. Beginning Balances, as adjusted                           39,908,117,000.00            39,910,368,675.68         (2,251,675.68)                                                    3,846,318,000.00          3,846,778,781.06      (460,781.06) reclass


Budgetary Financing Sources:

   4. Appropriations Received, General
Funds                                                                                                                                                               3101              9,610,818,000.00          9,610,817,255.70

    5. Appropriations Transferred-in/out                                                                                                                            3102F               81,820,000.00             140,578,410.85
                                                                                                                                                                    3103F                                         (58,758,485.33)


    7. Appropriations Used                 5700                                            9,519,709,418.46     (9,519,709,418.46)                                  3107             (9,519,709,000.00)         (9,519,709,418.46)         418.46 rounding
                                           5708                                                         -                     -
                                                                                                                              -
                                                              9,519,709,000.00             9,519,709,418.46               (418.46)
    Royalties Retained
      8. Minerals Resource Management ReS5900N.X                                           8,143,348,123.50     (8,143,348,123.50)
                                        S5900FX                                                         -                     -
                                        S5909N.X                                             (96,196,784.11)        96,196,784.11
                                        S5909FX                                                         -                     -

      8. Contra Revenue - Collections for Ot S5990N.X                                         (65,489,448.99)       65,489,448.99
                                             S5990FX                                       (5,275,361,798.13)    5,275,361,798.13
                                                                                                                                   The $121m amount should
                                                                                                                                   appear as a negative, not as a
                                           S5991FT                                           121,793,350.97       (121,793,350.97) positive.
                                           S5991FX                                                      -                     -
                                           S5900N.X                                                                           -
                                                                                                                                   Remaining $1.8 million
      Total - Royalties Retained                              2,582,663,000.00             2,828,093,443.24       (245,430,443.24) difference unlocated.

    9. Transfers In/Out without
Reimbursement                              5740F                                              50,316,779.13
                                                                                                                                                                         Attachment 3


                                           5745F                         (299,876,621.48)
                                           5750F                          284,599,711.97
                                           5755F                          392,984,949.49
                                           5760F                          (30,946,512.00)
                                           5765F                         (271,094,128.23)
                                                       127,338,000.00     125,984,178.88    1,353,821.12 immaterial reclass

    10. Tax Revenue                        A5800N.T                      659,217,378.10
                                           A5800FT                                  -
                                           A5801N.T                                 -
                                           A5801FT                                  -
                                           A5809N.T                                 -
                                           A5809FT                                  -
                                           A5890N.T                                 -
                                           A5890FT                                  -
                                                       659,217,000.00    659,217,378.10         (378.10) rounding

   11. Abandoned Mine Fees                 A5900N.T                      282,943,305.57
                                           A5900FT                                  -
                                           A5909N.T                         (532,733.19)
                                           A5909FT                                  -
                                                       282,411,000.00    282,410,572.38          427.62 rounding
   12. Donations and Forfeitures of Cash
and Cash Equivalents                       5600N.T                        33,327,839.30
                                           5609N.T                                  -
                                           A5320N.T                        7,002,861.87
                                           S5320N.T                           29,178.70
                                           A5320FT                             8,857.14
                                           A5329N.T                         (536,958.78)
                                           A5329FT                                  -
                                                        39,833,000.00     39,831,778.23        1,221.77 rounding

   13. Other Non-Exchange Revenue          A5310N.T                         7,647,215.61
                                           S5310N.T
                                           A5310FT                        85,247,357.67
                                           S5310FT                                  -
                                           A5319N.T                         (671,204.00)
                                           S5319N.T                                 -
                                           A5319FT                         2,038,632.72
                                           S5319FT
                                           A5900N.T                       36,575,356.30
                                           A5900FT                             3,056.12
                                                       130,544,000.00    130,840,414.42     (296,414.42)


                                                                                                                                                                           immaterial
   14. Other Budgetary Financing Sources                                                                                                                                   reclass (Treasury
& Adjustments                              5790F                          11,669,004.56                                       3106   (89,945,000.00)   (90,404,876.27)     formula missing)
                                           5799                                     -
                                                        13,361,000.00     11,669,004.56     1,691,995.44 immaterial reclass
Other Financing Sources:

   16. Imputed Financing from Financing
Absorbed from Others                       5780F                         570,542,354.43
                                                       570,544,000.00    570,542,354.43        1,645.57 rounding

   17. Transfers In/Out without Reimburseme5720F                          348,744,696.61
                                           5730F                         (405,590,772.83)
                                                       (57,643,000.00)    (56,846,076.22)   (796,923.78) immaterial reclass

   18. Donations and Forfeitures of Property 5610N.T                      46,862,863.93
                                             5619N                                  -
                                                        46,863,000.00     46,862,863.93          136.07 rounding

   19. Other                               A5909N.T                          (300,157.38)
                                           A5909FT                                   -
                                                                  -          (300,157.38)    300,157.38 immaterial reclass
                                                                                                                                                                                          Attachment 3


Total Financing Sources                   13,914,840,000.00   14,158,015,173.03    (243,175,173.03)                                           82,984,000.00      82,522,886.49    461,113.51 immaterial reclass

Net Cost of Operations         5100N.X                          (383,233,209.82)
                               5100FX                               (751,391.28)
                               5109N.X                                47,958.73
                               5109FX                                  3,188.60
                               5200N.X                          (689,802,248.32)
                               5200FX                         (2,226,249,921.20)
                               5209N.X                                   400.00
                               5209F                                        -
                               S5310N.X                                     -
                               A5310N.X                          (15,475,190.26)
                               A5310FX                           (34,443,145.06)
                               A5319N.X                               30,360.81
                               A5319FX                               437,696.16
                               5400N                                        -
                               5400F                                        -
                               5409N                                        -
                               5409F                                        -
                               5500N.X                               (12,638.81)
                               5500F                                        -
                               5509N                                        -
                               5509F                                        -
                                                                                                      The $11m difference is due to the
                                                                                                      application of the 5900 elimination
                                                                                                      entirely to non-exchange, when
                                                                                                      techinically a portion was
                               A5900N.X                         (456,032,032.10)                      exchange.
                               A5900FX                           (45,310,340.73)
                               A5909N.X                               67,387.34
                               A5909FX                                      -
                               6100N                          12,766,864,221.51
                               6100F                             826,774,657.85
                               6190N                                 398,133.56
                               6190F                                        -
                               6199N                             (11,883,198.00)
                               6310F                              26,425,471.43
                               6320N                                        -
                               6320F                                        -
                               6330N                               5,965,538.55
                               6330F                              11,962,208.10
                               6400N                               1,053,810.03
                               6400F                             899,783,967.46
                               6500N                              20,449,454.59
                               6600N                                        -
                               6610N                            (606,763,149.13)
                               6710N                             456,397,154.91
                               6720N                               5,026,346.54
                               6720F                               1,576,827.96
                               6730F                             559,010,972.63
                               6790N                            (181,989,466.86)
                               6790F                                  (5,637.55)
                               6800N                            (331,235,157.41)
                               6800F                               5,564,980.38
                               6850F                               3,861,827.22
                               6900N                           1,465,977,979.57
                               6900F                               2,970,859.38
                               7110N.X                            (3,834,704.28)
                               7110F                                        -
                               7210N.X                            42,785,871.20
                               7210F                                        -
                               7290N.X                            81,100,000.00
                               7600N                              53,136,482.01
Total Net Cost of Operations              12,239,394,000.00   12,250,652,325.71     (11,258,325.71)

Ending Balance                            41,583,563,000.00   41,817,731,523.00    (234,168,523.00)                                         3,929,302,000.00   3,929,301,667.55       332.45 Rounding
                                                                                                                                         Attachment 3


                                                                                                       Treasury column includes
                                                                                                       incorrect sign on a $121m
                                                                                                       amount. $11m due to application
                                                                                                       of "Other Revenue" eliminations
                                                                                                       entirely to non-exchange.
TOTAL NET POSITION                            45,512,865,000.00   45,747,033,190.55   (234,168,190.55) Remainder reflects rounding.

                                                                             #REF!

   Cumulative Results of Operations-
       SGL3310 Comparison                                                    #REF!


Please Explain Any Difference shown on
the line below entitled "Unreconciled
Change in Net Position"

FY 2002 Ending Cumulative Results of
Operations-SGL 3310 Confirmed by Agency
CFO                                           43,844,217,038.46

Beginning Cumulative Results of Operations-
SGL 3310 Reported in FACTS I
Unreconciled Change in SGL 3310                    1,383,150.22
                                                 (1,383,150.22)
NOTE: Unreconciled Change in SGL
3310 reflects the difference between the
fiscal 2001 ending SGL 3310 confirmation
amount agreed upon by the CFO and
USSGL 3310, cumulative results, reported
on the 2002 ATB's.
                                                                                                                                                        Attachment 4
                                                         DEPARTMENT OF INTERIOR
                                                         STATEMENT OF NET COST



                                                                                     Gross Cost Section


                                    Agency Gross Cost

                                     Amount From

   Budget
 Subfunctions      Agency            FACTS I NET
                  Statement             COST
                  Footnotes            REPORT                  Difference                                          Explanation

                                                                                      DOI bases Rev-Exp elim on Intra-Dept Revenue totals. $141,454,498
                                                                                     due to difference in elimination methodology. $<44,720,240> is
                                                                                     unlocated. All entities rolling up into BFS 300 have been verified, the
BFS 300         12,904,394,975.38    13,001,129,233.36             (96,734,257.98)   source of the Treasury amt is unknown.
                                                                                      DOI bases Rev-Exp elim on Intra-Dept Revenue totals. $247,771 due
BFS 400           255,991,230.65        255,743,459.50                 247,771.15    to difference in elimination methodology.
                                                                                      DOI bases Rev-Exp elim on Intra-Dept Revenue totals. $67,972,042
                                                                                     due to difference in elimination methodology. $2,896,475 is unlocated.
                                                                                     All entities rolling up into BFS 450 have been verified, the source of the
BFS 450          2,085,287,126.17     2,014,418,609.86              70,868,516.31    Treasury amt is unknown.
                                                                                      DOI bases Rev-Exp elim on Intra-Dept Revenue totals. $463,439 due
BFS 500           107,834,000.40        107,370,561.89                 463,438.51    to difference in elimination methodology.

                                                                                   DOI bases Rev-Exp elim on Intra-Dept Revenue totals. $26,070,124
BFS 800           747,868,119.32        722,713,587.04              25,154,532.28 due to difference in elimination methodology. $<915,592> is unlocated.
BFS 900                                            -                          -
BFS 950                                            -                          -
                16,101,375,451.92    16,101,375,451.65                       0.27
                                                                             Attachment 4




                Interdepartmental Amounts
                Included in Agency Net Cost

                        Amount From


 Agency            FACTS I NET
Statement             COST
Footnotes            REPORT                   Difference       Explanation




                                                           -

                                                           -




                                                           -

                                                           -


                                                           -
            -                    -                         -
                                                           -
            -                    -                         -
                                                                                                                                                                     Attachment 4

                                                                                                   Exchange Revenue Section


                                                                      Agency Exchange Revenue

                                            Amount From

udget Subfunction        Agency             FACTS I NET
                        Statement              COST
                        Footnotes             REPORT                         Difference                                           Explanation
                                                                                                  BFS 300-This Treas Revenue amount should be net of Intra DOI
                                                                                                 Eliminations of $1,722,725,402, but is not. All other lines are net of
                                                                                                 elims. Treasury must correct their amount.
                                                                                                  BFS 300 cont. $43,730,707 is unlocated. All entities rolling up into
                                                                                                 BFS 300 have been verified, the source of the Treasury amt is
BFS 300                3,536,501,998.00      5,302,958,207.04                 (1,766,456,209.04) unknown.
BFS 400                                                   -                                 -
BFS 450                  309,110,804.00        309,110,819.46                            (15.46) rounding
BFS 500                      265,923.00            265,923.72                             (0.72) rounding
                                                                                                  All entities rolling up into BFS 800 have been verified, the source of the
BFS 800                   16,101,174.00          7,753,454.53                      8,347,719.47 Treasury amt is unknown.
BFS 900                                                   -                                 -
                                                                                                  The Treasury Amount appears to include $2,793,794,090 of intra-dept
                                                                                                 activity in accounts 5990 and 5991 (Collections for Others) that was
                                                                                                 eliminated in entity 14_9999. These accounts are not included on the
BFS 950                             -        2,883,805,991.81                 (2,883,805,991.81) DOI Statement of Net Cost.
                                                                                                  BFS 950 cont. The Source of the remaining $90,011,901 could not be
                       3,861,979,899.00      8,503,894,396.56                 (4,641,914,497.56) identified.




                                                                                                   Summary Section


                    Net Cost           Net Cost
                    Amount From Agency Amount From Agency

                    Financial Statements FACTS I ATB                         Difference                                         Explanation

Department Total      12,239,395,552.92      7,597,481,055.09                  4,641,914,497.83
                                                  12,250,652,325.71
                                            (4,653,171,270.62)
                                                                         Attachment 4


                       Interdepartmental Amounts
                Included in Agency Exchange Revenue

                           Amount From

 Agency            FACTS I NET
Statement             COST
Footnotes            REPORT               Difference       Explanation




                                                       -
            -                    -                     -
                                                       -
                                                       -

                                                       -
                                                       -




                                                       -

            -                    -                     -
                                                                                                                                                                                             Attachment 5




             FACTS I NOTES Review Schedule
                                                 (1)                                                   (4)                       (5)                   (6)                    (7)           (8)


                                                                                                                         Agency Source      Amount from Agency
                                                                                        Amount from FACTS I NOTE         DATA               Source DATA
FACTS I NOTE SGL Account Reference                                                      Report Data (Department Level)   (Department Level) (Department Level)   Variance   (4) - (6)   Explanation
                       Note 3 (Fund Balance With Treasury-USSGL 1010)
Section C - Adjusted Fund Balance with Treasury                                         28,698,208,924.63                Footnote 2        28,698,208,924.63     0.00


                               Note 5 (Plant, Property & Equipment)
   Line 11, Column (2) - Property, Plant & Equipment                                    27,631,061,734.17                Footnote 5        27,631,061,734.17     0.00
   Line 11, Column (3) - Accumulated Depreciation                                       10,745,181,279.76                Footnote 5        10,745,181,279.76     0.00
   Line 11, Column (4) - Net Property, Plant & Equipment                                16,885,880,454.41                Footnote 5        16,885,880,454.41     0.00


                     Note 7 (Nonexchange Revenue and Related Receivables)
Section A - Receivable from Nonexchange Transactions
    Line 9, Column (2) - Taxes Receivable 9/30/02                                       0.00                                                                     0.00
    Line 9, Column (3) - Allowance for Loss on Taxes Receivable 9/30/02                 0.00                                                                     0.00
    Line 9, Column (4) - Taxes Receivable 9/30/03                                       0.00                                                                     0.00
    Line 9, Column (5) - Allowance for Loss on Taxes Receivable 9/30/03                 0.00                                                                     0.00
    Line 9, Column (6) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes      0.00                                                                     0.00
Section B - Nonexchange Revenue
Individual Income Tax and Tax Withholding
    Line 1, Column (2) - Tax Revenue Collected                                          0.00                                                                     0.00
    Line 1, Column (3) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes      0.00                                                                     0.00
    Line 1, Column (4) - Penalities,Fines and Administrative Fees                       0.00                                                                     0.00
    Line 1, Column (5) - Contra Revenue for Penalities, Fines and Administrative Fees   0.00                                                                     0.00
    Line 1, Column (6) - Tax Revenue Refunds                                            0.00                                                                     0.00
Corporate Taxes
    Line 2, Column (2) - Tax Revenue Collected                                          0.00                                                                     0.00
    Line 2, Column (3) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes      0.00                                                                     0.00
    Line 2, Column (4) - Penalities,Fines and Administrative Fees                       0.00                                                                     0.00
    Line 2, Column (5) - Contra Revenue for Penalities, Fines and Administrative Fees   0.00                                                                     0.00
    Line 2, Column (6) - Tax Revenue Refunds                                            0.00                                                                     0.00
Unemployment Insurance
    Line 3, Column (2) - Tax Revenue Collected                                          0.00                                                                     0.00
    Line 3, Column (3) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes      0.00                                                                     0.00
    Line 3, Column (4) - Penalities,Fines and Administrative Fees                       0.00                                                                     0.00
    Line 3, Column (5) - Contra Revenue for Penalities, Fines and Administrative Fees   0.00                                                                     0.00
    Line 3, Column (6) - Tax Revenue Refunds                                            0.00                                                                     0.00
Excise Taxes
    Line 4, Column (2) - Tax Revenue Collected                                          0.00                                                                     0.00
    Line 4, Column (3) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes      0.00                                                                     0.00
    Line 4, Column (4) - Penalities,Fines and Administrative Fees                       0.00                                                                     0.00
    Line 4, Column (5) - Contra Revenue for Penalities, Fines and Administrative Fees   0.00                                                                     0.00
    Line 4, Column (6) - Tax Revenue Refunds                                            0.00                                                                     0.00
Estate and Gift Taxes
    Line 5, Column (2) - Tax Revenue Collected                                          0.00                                                                     0.00
    Line 5, Column (3) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes      0.00                                                                     0.00
    Line 5, Column (4) - Penalities,Fines and Administrative Fees                       0.00                                                                     0.00
    Line 5, Column (5) - Contra Revenue for Penalities, Fines and Administrative Fees   0.00                                                                     0.00
    Line 5, Column (6) - Tax Revenue Refunds                                            0.00                                                                     0.00
Railroad Retirement
    Line 6, Column (2) - Tax Revenue Collected                                          0.00                                                                     0.00
    Line 6, Column (3) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes      0.00                                                                     0.00
    Line 6, Column (4) - Penalities,Fines and Administrative Fees                       0.00                                                                     0.00
    Line 6, Column (5) - Contra Revenue for Penalities, Fines and Administrative Fees   0.00                                                                     0.00
    Line 6, Column (6) - Tax Revenue Refunds                                            0.00                                                                     0.00
Customs Duties
    Line 7, Column (2) - Tax Revenue Collected                                          0.00                                                                     0.00
    Line 7, Column (3) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes      0.00                                                                     0.00
    Line 7, Column (4) - Penalities,Fines and Administrative Fees                       0.00                                                                     0.00
    Line 7, Column (5) - Contra Revenue for Penalities, Fines and Administrative Fees   0.00                                                                     0.00
    Line 7, Column (6) - Tax Revenue Refunds                                            0.00                                                                     0.00
Miscellaneous Taxes
    Line 8, Column (2) - Tax Revenue Collected                                          0.00                                                                     0.00
    Line 8, Column (3) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes      0.00                                                                     0.00
    Line 8, Column (4) - Penalities,Fines and Administrative Fees                       0.00                                                                     0.00
                                                                                                                                                                                                               Attachment 5
                                                                                                                                           Agency Source      Amount from Agency
                                                                                                       Amount from FACTS I NOTE            DATA               Source DATA
FACTS I NOTE SGL Account Reference                                                                     Report Data (Department Level)      (Department Level) (Department Level)   Variance   (4) - (6)   Explanation
   Line 8, Column (5) - Contra Revenue for Penalities, Fines and Administrative Fees                   0.00                                                                        0.00
   Line 8, Column (6) - Tax Revenue Refunds                                                            0.00                                                                        0.00
Other Nonexchange Revenue
   Line 9, Column (2) - Tax Revenue Collected                                                          659,217,378.10                      ATBs              659,217,378.10        0.00
   Line 9, Column (3) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes                      0.00                                                                        0.00
   Line 9, Column (4) - Penalities,Fines and Administrative Fees                                       7,032,040.57                        ATBs              7,032,040.57          0.00
   Line 9, Column (5) - Contra Revenue for Penalities, Fines and Administrative Fees                   536,958.78                          ATBs              536,958.78            0.00
   Line 9, Column (6) - Tax Revenue Refunds                                                            0.00                                                                        0.00
Total Nonexchange Revenue
   Line 10, Column (2) - Tax Revenue Collected                                                         659,217,378.10                      ATBs              659,217,378.10        0.00
   Line 10, Column (3) - Tax Revenue Accrual Adjustment & Contra Revenue for Taxes                     0.00                                                                        0.00
   Line 10, Column (4) - Penalities,Fines and Administrative Fees                                      7,032,040.57                        ATBs              7,032,040.57          0.00
   Line 10, Column (5) - Contra Revenue for Penalities, Fines and Administrative Fees                  536,958.78                          ATBs              536,958.78            0.00
   Line 10, Column (6) - Tax Revenue Refunds                                                           0.00                                                                        0.00


                           Note 8 (Other Actuarial Liabilities- USSGL 2690)
   Veteran Burial Benefits                                                                             0.00                                                                        0.00
   Compensation for Veterans                                                                           0.00                                                                        0.00
   Compensation for Survivors                                                                          0.00                                                                        0.00
   All Other Actuarial Liabilities (lines 4-20)                                                                                     0.00                                           0.00


                                 Note 10 (Federal Debt Securities)
Section A - Securities Issued by Treasury (to be completed by Treasury only)
  Line 1A, Column 2, Bills                                                                             0.00                                                                        0.00
  Line 1A, Column 3, Average Interest Rate                                                             0.00                                                                        0.00
  Line 1B, Column 2, Notes                                                                             0.00                                                                        0.00
  Line 1B, Column 3, Average Interest Rate                                                             0.00                                                                        0.00
  Line 1C, Column 2, Bonds                                                                             0.00                                                                        0.00
  Line 1C, Column 3, Average Interest Rate                                                             0.00                                                                        0.00

  Line 2A, Column 2, Foreign Government Series                                                         0.00                                                                        0.00
  Line 2A, Column 3, Average Interest Rate                                                             0.00                                                                        0.00
  Line 2B, Column 2,Government Account Securities                                                      0.00                                                                        0.00
  Line 2B, Column 3, Average Interest Rate                                                             0.00                                                                        0.00
  Line 2C, Column 2, State and Local Governemnt Series                                                 0.00                                                                        0.00
  Line 2C, Column 3, Average Interest Rate                                                             0.00                                                                        0.00
  Line 2D, Column 2, U. S. Savings Bonds                                                               0.00                                                                        0.00
  Line 2D, Column 3, Average Interest Rate                                                             0.00                                                                        0.00
  Line 2E, Column 2, Other Non-Marketable Securities                                                   0.00                                                                        0.00
  Line 2E, Column 3, Average Interest Rate                                                             0.00                                                                        0.00
  Line 3, Column 2, Total treasury securities                                                          0.00                                                                        0.00
  Line 4, Column 2, Unamortized Premiums                                                               0.00                                                                        0.00
  Line 5, Column 2, Unamortized Discounts                                                              0.00                                                                        0.00
Section B - Securities Issued by Agencies
  Line 11, Column (2) - Total Agency Securities, Net                                                   0.00                                                                        0.00
  Line 12, Column (3) - Average Interest Rate on Securities Issued by the Tennessee Valley Authority   0.00                                                                        0.00
   (to be completed by TVA only)
Section F - Agency Investments in Federal Debt Securities
(Agency should identify each program seperately)
   Line 21, Column (2), Total Federal Securites Held as Investments in Governement Accounts            5,607,838,360.07                    Footnote 4        5,607,838,360.07      0.00
   Line 22, Column (2), Discounts                                                                      0.00                                                                        0.00
   Line 23, Column (2), Premiums                                                                       0.00                                                                        0.00
   Line 24, Column (2), Amortization of Discounts and Premiums                                         0.00                                                                        0.00
   Line 25, Column (2), Unrealized Gains (+) or Losses (-) Due to Adjustments for Market Value         0.00                                                                        0.00
   Line 26, Column (2), Net Federal Debt Securities Held as Investments in Government Accounts         5,607,838,360.07                    Footnote 4        5,607,838,360.07      0.00
Section H - Other Information from the Bureau of Public Debt (to be completed by Treasury Only)
   Line 1, Column (2), Statutory Debt Limit as of September 30, 2002                                   0.00                                                                        0.00
   Line 2, Column (2), Amount of Debt Issued Subject to the Debt Limit                                 0.00                                                                        0.00


             Note 12 (Cost of Stewardship Land) Acquired in the Current Fiscal Year
Section A
  Heritage Collection-Type Assets                                                                      0.00                                                                        0.00
  Heritage Natural Assets                                                                              263,031,688.56                      Footnote 21       263,031,688.56        0.00
  Heritage Cultural Assets                                                                             79,625,642.48                       Footnote 21       79,625,642.48         0.00
  Other Classes of Heritage Assets                                                                     0.00                                                                        0.00
  Stewardship Land Acquired                                                                            0.00                                                                        0.00
  Total Cost of Assets                                                                                 342,657,331.04                                        342,657,331.04        0.00


                    Note 13 (Federal Employee and Veteran Benefits Payable)
Section B (Related to SGL 2610 & 2216)
   Line 1, Pension Liability/Asset - Beginning of Period                                               0.00                                                                        0.00
                                                                                                                                                                                   Attachment 5
                                                                                                               Agency Source      Amount from Agency
                                                                              Amount from FACTS I NOTE         DATA               Source DATA
FACTS I NOTE SGL Account Reference                                            Report Data (Department Level)   (Department Level) (Department Level)   Variance   (4) - (6)   Explanation
   Line 2, Prior Period Adjustments/Correction of Errors                      0.00                                                                     0.00
   Line 3, Prior Period Adjustments/Change in Accounting Principles           0.00                                                                     0.00
   Line 4, Corrected Pension Liability/Asset (Beginning of Period)            0.00                                                                     0.00
Pension Expenses
   Line 5, Normal Costs                                                       0.00                                                                     0.00
   Line 6, Interest on Unfunded Liability                                     0.00                                                                     0.00
   Line 7, Actuarial Gains/Losses                                             0.00                                                                     0.00
   Line 8, Total Expense                                                      0.00                                                                     0.00
   Line 9, Benefits Paid                                                      0.00                                                                     0.00
   Line 10, Pension Liability/Asset - End of Year                             0.00                                                                     0.00
   Line 11, Valuation Date of Pension Liability/Asset                         0.00                                                                     0.00

Section C
   Line 1, Rate of Interest                                                   0.00                                                                     0.00
   Line 2, Rate of Inflation                                                  0.00                                                                     0.00
   Line 3, Projected Rate of Salary Increases                                 0.00                                                                     0.00

Section D (Related to SGL 2620 & 2217)
   Line 1, Post-Employment Health Benefits Liability (Beginning of Period)    0.00                                                                     0.00
   Line 2, Prior Period Adjustments /Correction of Errors                     0.00                                                                     0.00
   Line 3, Prior Period Adjustments/Change in Accounting Principles           0.00                                                                     0.00
   Line 4, Corrected Post-Employment Health Liability (Beginning of Period)   0.00                                                                     0.00
Post-Employment Health Benefits Expense
   Line 5, Normal Costs                                                       0.00                                                                     0.00
   Line 6, Interest on Unfunded Liability                                     0.00                                                                     0.00
   Line 7, Actuarial Gains/Losses                                             0.00                                                                     0.00
   Line 8, Total Expense                                                      0.00                                                                     0.00
   Line 9, Claims Paid                                                        0.00                                                                     0.00
   Line 10, Post-Employment Health Benefits Liability (End of Period)         0.00                                                                     0.00
   Line 11, Valuation Date of Post-Employment Health Benefits Liability       0.00                                                                     0.00

Section E
   Line 1, Rate of Interest                                                   0.00                                                                     0.00
   Line 2. Rate of Inflation                                                  0.00                                                                     0.00




                                Note 14 (Prior Period Adjustments)




Section A - Material Correction Of Errors Restated
   Line 9, Column (2) - USSGL 7401N - Decreases to Equity (Debit)             0.00                                                                     0.00
   Line 9, Column (3) - USSGL 7401N - Increases to Equity (Credit)            0.00                                                                     0.00
   Line 9, Column (4) - USSGL 7401F - Decreased to Equity (Debit)             0.00                                                                     0.00
   Line 9, Column (5) - USSGL 7401F - Increases to Equity (Credit)            0.00                                                                     0.00
Total Correction of Errors                                                    0.00

Section B - Changes in Accounting Principles
and Other Non-Material Adjustments Not Restated
   Line 9, Column (2) - USSGL 7400N - Decreases to Equity (Debit)             0.00                                                                     0.00
   Line 9, Column (3) - USSGL 7400N - Increases to Equity (Credit)            0.00                                                                     0.00
   Line 9, Column (4) - USSGL 7400F - Decreased to Equity (Debit)             0.00                                                                     0.00
   Line 9, Column (5) - USSGL 7400F - Increases to Equity (Credit)            0.00                                                                     0.00
Total Changes in Accounting Principles                                                      0.00                                                       0.00


                             Note 15 (Selected Dedicated Collections)
Section A: Trust Fund Receipts and Disbursements
    Line 1, Federal Old-Age and Survivors Insurance
      a) Receipts                                                             0.00                                                                     0.00
      b) Disbursements                                                        0.00                                                                     0.00
   Line 2, Federal Disability Insurance
      a) Receipts                                                             0.00                                                                     0.00
      b) Disbursements                                                        0.00                                                                     0.00
   Line 3, Federal Hospital Insurance (Medicare, Part A)
      a) Receipts                                                             0.00                                                                     0.00
      b) Disbursements                                                        0.00                                                                     0.00
   Line 4, Federal Supplementary Medical Insurance (Medicare, Part B)
      a) Receipts                                                             0.00                                                                     0.00
      b) Disbursements                                                        0.00                                                                     0.00
   Line 5, Unemployment
      a) Receipts                                                             0.00                                                                     0.00
                                                                                                                                                                             Attachment 5
                                                                                                         Agency Source      Amount from Agency
                                                                        Amount from FACTS I NOTE         DATA               Source DATA
FACTS I NOTE SGL Account Reference                                      Report Data (Department Level)   (Department Level) (Department Level)   Variance   (4) - (6)   Explanation
    b) Disbursements                                                    0.00                                                                     0.00
  Line 6, Hazardous Substance Superfund
    a) Receipts                                                         0.00                                                                     0.00
    b) Disbursements                                                    0.00                                                                     0.00
  Line 7, Highway Trust Fund
    a) Receipts                                                         0.00                                                                     0.00
    b) Disbursements                                                    0.00                                                                     0.00
  Line 8, Airport and Airway Trust Fund
    a) Receipts                                                         0.00                                                                     0.00
    b) Disbursements                                                    0.00                                                                     0.00
  Line 9, Civil Service Retirement and Disability Fund
    a) Receipts                                                         0.00                                                                     0.00
    b) Disbursements                                                    0.00                                                                     0.00
  Line 10, Military Retirement Trust Fund
    a) Receipts                                                         0.00                                                                     0.00
    b) Disbursements                                                    0.00                                                                     0.00
  Line 11, Railroad Retirement Board Trust Fund
    a) Receipts                                                         0.00                                                                     0.00
    b) Disbursements                                                    0.00                                                                     0.00
  Line 12, Black Lung
    a) Receipts                                                         0.00                                                                     0.00
    b) Disbursements                                                    0.00                                                                     0.00

Section B: Trust Fund Assets
   Line 1, Federal Old-Age and Survivors Insurance
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
   Line 2, Federal Disability Insurance
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
   Line 3, Federal Hospital Insurance (Medicare, Part A)
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
   Line 4, Federal Supplementary Medical Insurance (Medicare, Part B)
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
   Line 5, Unemployment
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
  Line 6, Hazardous Substance Superfund
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
   Line 7, Highway Trust Fund
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
   Line 8, Airport and Airway Trust Fund
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
   Line 9, Civil Service Retirement and Disability Fund
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
   Line 10, Military Retirement Trust Fund
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
  Line 11, Railroad Retirement Board Trust Fund
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00
   Line 12, Black Lung
      a) Net Assets End of Year                                         0.00                                                                     0.00
      b) Intragovernmental Net Assets End of Year                       0.00                                                                     0.00


                               Note 16 (Deferred Maintenance)
Section A
  Buildings, Structures and Facilities
      a) Low                                                            6,679,236.00                     RSI               6,679,236.00          0.00
      b) High                                                           11,262,922.00                    RSI               11,262,922.00         0.00
      c) Critical Maintenance                                           0.00                                                                     0.00
      d) Condition Assessment
      e) Life Cycle
      f) Other
  Furniture, Fixtures and Equipment
      a) Low                                                            0.00                                                                     0.00
      b) High                                                           0.00                                                                     0.00
      c) Critical Maintenance                                           0.00                                                                     0.00
                                                                                                                                                                                     Attachment 5
                                                                                                                 Agency Source      Amount from Agency
                                                                                Amount from FACTS I NOTE         DATA               Source DATA
FACTS I NOTE SGL Account Reference                                              Report Data (Department Level)   (Department Level) (Department Level)   Variance   (4) - (6)   Explanation
      d) Condition Assessment
      e) Life Cycle
      f) Other
  Assets Under Capital Lease
      a) Low                                                                    0.00                                                                     0.00
      b) High                                                                   0.00                                                                     0.00
      c) Critical Maintenance                                                   0.00                                                                     0.00
      d) Condition Assessment
      e) Life Cycle
      f) Other
  Land
      a) Low                                                                    0.00                                                                     0.00
      b) High                                                                   0.00                                                                     0.00
      c) Critical Maintenance                                                   0.00                                                                     0.00
      d) Condition Assessment
      e) Life Cycle
      f) Other
  All Other Categories
      a) Low                                                                    0.00                                                                     0.00
      b) High                                                                   0.00                                                                     0.00
      c) Critical Maintenance                                                   0.00                                                                     0.00
      d) Condition Assessment
      e) Life Cycle
      f) Other
  Total Deferred Maintenance on General PP&E
      a) Low                                                                    6,679,236.00                     RSI               6,679,236.00          0.00
      b) High                                                                   11,262,922.00                    RSI               11,262,922.00         0.00
      c) Critical Maintenance                                                   0.00                                                                     0.00
Section C
 Heritage Assets
  Line 10, Column (2), Total Deferred Maintenance on Heritage Assets            748,886.00                       RSI               748,886.00            0.00
  Line 10, Column (3), Total Deferred Maintenance on Heritage Assets            1,558,896.00                     RSI               1,558,896.00          0.00
  Line 10, Column (4), Total Deferred Maintenance on Heritage Assets            0.00                                                                     0.00
Section E
 Federal Mission Assets
  Line 10, Column (2), Total Deferred Maintenance on Federal Mission Assets     0.00                                                                     0.00
  Line 10, Column (3), Total Deferred Maintenance on Federal Mission Assets     0.00                                                                     0.00
  Line 10, Column (4), Total Deferred Maintenance on Federal Mission Assets     0.00                                                                     0.00
Section G
 Stewardship Land
  Line 11, Column (2), Total Deferred Maintenance on Stewardship Land           0.00                                                                     0.00
  Line 11, Column (3), Total Deferred Maintenance on Stewardship Land           0.00                                                                     0.00
  Line 11, Column (4), Total Deferred Maintenance on Stewardship Land           0.00                                                                     0.00


                                            Note 17 (Other Items)
Section A - Other Cash - USSGL1190N
Line 6 - Total Other Cash                                                       0.00                                                                     0.00
Section B - Other General Property, Plant and Equipment
   Line 6, Column (2) - USSGL1890N                                              0.00                                                                     0.00
Section C - Other Assets - USSGL1990N
   Line 6 - Other Assets                                                        266,731,204.50                   Footnote 10       266,731,204.50        0.00
Section D - Other Accrued Liabilities - USSGL 2190N
   Line 6 - Total Other Accrued Liabilities                                     467,937,138.86                   ATBs              467,937,138.86        0.00
Section E - Contingent Liabilities - USSGL 2920N
   Line 6 -Total Contingent Liabilities                                         771,586,952.55                   Footnote 15       771,586,952.55        0.00
Section F - Custodial Liabilities - USSGL 2980N
   Line 10, Total Custodial Liabilities                                         35,991,884.04                    ATBs              35,991,884.04         0.00
Section G - Other Liabilities - USSGL 2990N
   Line 1, Monitarized SDRs                                                     0.00                                                                     0.00
   Line 2, Allocated SDRs                                                       0.00                                                                     0.00
   Lines 3 - 10                                                                 368,930,107.31                   ATBs              368,930,107.31        0.00
Section H - Other Gains
   Line 6, USSGL 7190N                                                          0.00                                                                     0.00
Section I - Other Losses
   Line 6, USSGL 7290N                                                          81,100,000.00                    Footnote 21       81,100,000.00         0.00


                    Note 18 (Loans Receivable and Loan Guarantee Liabilities)
Section B - Direct Loans Obligated Prior to Fiscal 1992
Present Value Method
  Line 11, Column (2), Loans Receivable, Gross                                  0.00                                                                     0.00
  Line 11, Column (6), Value of Assets Related to Direct Loans                  0.00                                                                     0.00
Allowance for Loss Method
  Line 11, Column (2), Loans Receivable, Gross                                  108,205,752.00                   Footnote 6        108,205,752.00        0.00
                                                                                                                                                                                                        Attachment 5
                                                                                                                                  Agency Source        Amount from Agency
                                                                                                 Amount from FACTS I NOTE         DATA                 Source DATA
FACTS I NOTE SGL Account Reference                                                               Report Data (Department Level)   (Department Level)   (Department Level)   Variance   (4) - (6)   Explanation
  Line 11, Column (6), Value of Assets Related to Direct Loans                                   99,330,160.00                    Footnote 6           99,330,160.00        0.00
Section C: Direct Loans Obligated After Fiscal 1991
  Line 11, Column (2), Loans Receivable, Gross                                                   159,239,231.00                   Footnote 6           159,239,231.00       0.00
  Line 11, Column (6), Value of Assets Related to Direct Loans                                   132,907,793.00                   Footnote 6           132,907,793.00       0.00
Section D - Defaulted Guaranteed Loans from Pre-1992 Guarantees
Present Value Method
  Line 11, Column (2), Defaulted Guaranteed Loans Receivable, Gross                              0.00                                                                       0.00
  Line 11, Column (6), Value of Assets Related to Defaulted Guaranteed Loans Receivable,Net      0.00                                                                       0.00
Allowance for Loss Method
  Line 11, Column (2), Defaulted Guaranteed Loans Receivable, Gross                              16,962,937.00                    Footnote 6           16,962,937.00        0.00
  Line 11, Column (6), Value of Assets Related to Defaulted Guaranteed Loans Receivable,Net      658,066.00                       Footnote 6           658,066.00           0.00
Section E - Defaulted Guaranteed Loans from Post-1991 Guarantees
  Line 11, Column (2), Defaulted Guaranteed Loans Receivable, Gross                              6,148,341.00                     Footnote 6           6,148,341.00         0.00
  Line 11, Column (6), Value of Assets Related to Defaulted Guaranteed Loans Receivable,Net      759,681.00                       Footnote 6           759,681.00           0.00
Section F - Guaranteed Loans Outstanding
  Line 11, Column (2), Outstanding Principal of Guaranteed Loans, Face Value                     274,018,000.00                   Footnote 6           274,018,000.00       0.00
  Line 11, Column (3), Amount of Outstanding Principal Guaranteed                                243,034,000.00                   Footnote 6           243,034,000.00       0.00
Section G - Liability for Loan Guarantees
Present Value Method for Pre-1992 Guarantees
  Line 11, Column (2), Liabilities for Losses on Pre-1992 Guarantees, Present Value              0.00                                                                       0.00
  Line 11, Column (3), Liabilities for Loan Guarantees for Post-1991 Guarantees, Present Value   0.00                                                                       0.00
  Line 11, Column (4), Total Liabilities for Loan Guarantees                                     0.00                                                                       0.00
Estimated Future Default Claims for Pre-1992 Guarantees
  Line 11, Column (4) Total Liabilities for Loan Guarantees                                      52,184,733.02                    Footnote 6           52,184,733.02        0.00
Section H - Subsidy Expense for Post-1991 Direct Loans
Total Direct Loan Subsidy Expense
  Line 11, Column (2), Amount                                                                    -11,347,000.00                   Footnote 6           -11,347,000.00       0.00
Section I - Subsidy Expense for Post-1991 Loan Guarantees
Total Loan Guarantee Subsidy Expense
   Line 11, Column (2), Amount                                                                   3,418,000.00                                                               0.00


                             Note 19 (Commitment and Contingencies)
Section A - Long Term Leases
  Line 21, Column 2, Capital Leases                                                              0.00                                                                       0.00
  Line 21, Column 3, Operating Leases                                                            1,782,438,000.00                                      1,782,438,000.00     0.00
  Line 21, Column 4, Total Long Term Leases                                                      1,782,438,000.00                                      1,782,438,000.00     0.00
Section B - Unexpended Obligations
  Line 21, Column 2, From the Public                                                             4,533,553,892.50                 ATBs                 4,533,553,892.50     0.00
  Line 21, Column 3, From other Government Entitiies                                             828,389,388.47                   ATBs                 828,389,388.47       0.00
  Line 21, Column 4, Total                                                                       5,361,943,280.97                 ATBs                 5,361,943,280.97     0.00
Section C - Insurance Contingencies
  Line 21, Column 2, Possible Contingency                                                        0.00                                                                       0.00
  Line 21, Column 3, Insurance in Force                                                          0.00                                                                       0.00
Section D - Unadjudicated Claims
  Line 21, Total Unadjudicated Claims                                                            443,000,000.00                   Footnote 15          443,000,000.00       0.00
Section E - Other Contingencies
  Line 6, Total Other Contingencies                                                              24,000,000.00                    Footnote 15          24,000,000.00        0.00
Section F - Other Commitments
  Line 6, Total Other Commitments                                                                0.00                                                                       0.00


                                      Note 20 (Human Capital)
Section A - Investments in Human Capital
  Line 21, Column 2, Fiscal 1999 Investments                                                     0.00                                                                       0.00
  Line 21, Column 3, Fiscal 2000 Investments                                                     555,800,000.00                   RSSI                 555,800,000.00       0.00
  Line 21, Column 4, Fiscal 2001 Investments                                                     578,300,000.00                   RSSI                 578,300,000.00       0.00
  Line 21, Column 5, Fiscal 2002 Investments                                                     676,900,000.00                   RSSI                 676,900,000.00       0.00
  Line 21, Column 6, Fiscal 2003 Investments                                                     621,400,000.00                   RSSI                 621,400,000.00       0.00


                               Note 21 (Research and Development)
Section A - Investments in Basic Research
  Line 21, Column 2, Fiscal 1999 Investments                                                     78,600,000.00                    RSSI                 78,600,000.00        0.00
  Line 21, Column 3, Fiscal 2000 Investments                                                     63,500,000.00                    RSSI                 63,500,000.00        0.00
  Line 21, Column 4, Fiscal 2001 Investments                                                     64,600,000.00                    RSSI                 64,600,000.00        0.00
  Line 21, Column 5, Fiscal 2002 Investments                                                     87,000,000.00                    RSSI                 87,000,000.00        0.00
  Line 21, Column 6, Fiscal 2003 Investments                                                     77,300,000.00                    RSSI                 77,300,000.00        0.00
Section C - Investments in Applied Research
  Line 21, Column 2, Fiscal 1999 Investments                                                     767,100,000.00                   RSSI                 767,100,000.00       0.00
  Line 21, Column 3, Fiscal 2000 Investments                                                     755,600,000.00                   RSSI                 755,600,000.00       0.00
  Line 21, Column 4, Fiscal 2001 Investments                                                     648,000,000.00                   RSSI                 648,000,000.00       0.00
  Line 21, Column 5, Fiscal 2002 Investments                                                     881,300,000.00                   RSSI                 881,300,000.00       0.00
  Line 21, Column 6, Fiscal 2003 Investments                                                     765,900,000.00                   RSSI                 765,900,000.00       0.00
Section E - Investments in Development
                                                                                                                                                                              Attachment 5
                                                                                                        Agency Source        Amount from Agency
                                                                       Amount from FACTS I NOTE         DATA                 Source DATA
FACTS I NOTE SGL Account Reference                                     Report Data (Department Level)   (Department Level)   (Department Level)   Variance   (4) - (6)   Explanation
  Line 21, Column 2, Fiscal 1999 Investments                           39,000,000.00                    RSSI                 39,000,000.00        0.00
  Line 21, Column 3, Fiscal 2000 Investments                           53,000,000.00                    RSSI                 53,000,000.00        0.00
  Line 21, Column 4, Fiscal 2001 Investments                           55,900,000.00                    RSSI                 55,900,000.00        0.00
  Line 21, Column 5, Fiscal 2002 Investments                           92,000,000.00                    RSSI                 92,000,000.00        0.00
  Line 21, Column 6, Fiscal 2003 Investments                           101,400,000.00                   RSSI                 101,400,000.00       0.00


                              Note 22 (Non-Federal Physical Property
Section A - Investments in Non-Federal Physical Property
  Line 21, Column 2, Fiscal 1999 Investments                           458,700,000.00                   RSSI                 458,700,000.00       0.00
  Line 21, Column 3, Fiscal 2000 Investments                           469,400,000.00                   RSSI                 469,400,000.00       0.00
  Line 21, Column 4, Fiscal 2001 Investments                           665,600,000.00                   RSSI                 665,600,000.00       0.00
